<html>
<title> - SIX YEARS OF WAR IN SYRIA: THE HUMAN TOLL</title>
<body><pre>[Senate Hearing 115-812]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-812

                         SIX YEARS OF WAR IN SYRIA: 
                             THE HUMAN TOLL

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             MARCH 15, 2017

                               __________

       Printed for the use of the Committee on Foreign Relations


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-436 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------



                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Risch, Hon. James E., U.S. Senator From Idaho....................     1

1Cardin, Hon. Benjamin L., U.S. Senator From Maryland............     1

Merkley, Hon. Jeff, U.S. Senator From Oregon.....................     4

Farida, Dr., Syrian American Medical Society, Aleppo, Syria......     5
    Prepared statement...........................................     6

Abdulkhalek, Dr., Syrian American Medical Society, Aleppo, Syria.     7
    Prepared statement...........................................     9

Rajab, Dr. Mohamed Abu, Syrian American Medical Society, Aleppo, 
  Syria..........................................................    10
    Prepared statement...........................................    11

Keny-Guyer, Neal, Chief Executive Officer, Mercy Corps, Portland, 
  OR.............................................................    12
    Prepared statement...........................................    14

Miliband, Rt. Hon. David, President and Chief Executive Officer, 
  International Rescue Committee, New York, NY...................    20
    Prepared statement...........................................    22

              Additional Material Submitted for the Record

The Committee Received No Response From Mr. Neal Keny-Guyer for 
  the Following Questions Submitted by Senator Todd Young........    48

Responses of The Right Hon. David Miliband to Questions Submitted 
  by Senator Todd Young..........................................    49

                             (iii)        

 
                       SIX YEARS OF WAR IN SYRIA:
                             THE HUMAN TOLL

                              ----------                              


                       WEDNESDAY, MARCH 15, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch presiding.
    Present: Senators Risch [presiding], Rubio, Johnson, Flake, 
Young, Cardin, Menendez, Coons, Kaine, Markey, and Merkley.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. The meeting will come to order. Good 
morning, everyone, and thank you for attending.
    Today marks the sixth anniversary--I use that word 
guardedly--to the start of the civil war in Syria. We all know 
that it has caused the largest humanitarian crisis on the 
planet since World War II.
    There are many, many issues regarding the conflict, and 
today we are going to explore some of those. And a few of them 
that we will talk about are the food shortage in Syria, and the 
substantial starvation and deprivation that has occurred there, 
a recent development where Turkey has revoked the permits for 
certain humanitarian NGOs to distribute food there. Education 
is a big issue, of course, for everyone in the world. And with 
6 years of this war, there is an entire generation that is 
going to be deprived on the educational front.
    There are a number of issues regarding that, and we are 
going to delve into all of those.
    So with that, I would like to recognize our distinguished 
ranking member, Senator Cardin, for his comments.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Chairman Risch, first of all, thank you 
very much for stepping in to chair this hearing. We should 
point out that Senator Corker has commitments with President 
Trump today in Tennessee, and that is the reason why he is not 
able to chair the hearing.
    I have talked to Senator Corker. I know his personal 
interests in regards to the humanitarian crisis in Syria. I can 
assure everyone that this committee will work together to do 
everything we can to help in regards to the humanitarian crisis 
that exists in Syria today.
    As Chairman Risch pointed out, the war has been going on 
for 6 years, 6 long years. The country and many of its cities 
have been reduced to rubble. Loved ones have been killed and 
wounded. Syrians are now destitute, two-thirds in extreme or 
abject poverty.
    I heard that it could cost as much as 25 percent of a 
Syrian family's income to pay for water. Think about that for a 
moment, spending one-fourth of your income so that you have 
water for your family.
    The essential infrastructures have been destroyed in the 
country. Schools have been destroyed, hospitals, sanitation 
systems, electrical grids. Five million Syrians have fled their 
homeland.
    And it is tragic for all Syrians, but particularly for the 
innocent children, many of whom have been killed. The mental 
health of the Syrian children, we just received a report last 
week from Save the Children, and it is tragic. As that report 
points out, these children have lost their childhood. They have 
been absent from school because school does not exist in many 
parts of Syria today. Their speech has been affected. And they 
have many issues, including partial amnesia.
    So this is a tragic situation for all in Syria. The act of 
war has challenged the humanitarian efforts to get help to the 
people who have been victimized. We know that.
    I have grave concern about the Trump policies as to how it 
is assisting and dealing with the crisis in Syria.
    And, Mr. Chairman, let me just mention three points that 
concern me.
    First, we have heard that President Trump will be 
submitting a budget that has a 37 percent cut in the State 
Department's budget. If America is going to be active in 
dealing with the humanitarian needs, how do we do that with a 
budget that is already inadequate, cutting it by over one-
third?
    We have also heard reports that the humanitarian budget may 
be zeroed out in some cases. That is not what America stands 
for. We, our country, have been the leader globally in pursuing 
humanitarian needs, recognizing that it is part of what we 
stand for as a Nation, but it is also in our national security 
interests to make sure that there is stability in countries.
    Can we really do that with a budget that cuts development 
assistance by that size and amount of money? Budgets talk about 
priorities. Is that what our priority is going to be?
    Secondly, I have grave concern about Mr. Trump's policies 
as it relates to Russia in dealing with Syria. Russia has 
supported and facilitated the atrocities that have taken place 
in Syria. They have targeted civilians. They have attacked 
humanitarian convoys. We know about the U.N. convoy that was 
attacked, killing 14 civilians and wounding and severely 
injuring another 15 more.
    Russia has participated in war crimes. They need to be held 
accountable. I will be reintroducing shortly the Syrian War 
Crime Accountability Act. I urge my colleagues to help us get 
that done so we make it clear to all who are participating in 
atrocities in Syria that they will be held accountable for 
their activities.
    Third, let me mention the refugee policy of the Trump 
administration, the most recent executive order. There have 
been now over 100 Republican and Democratic national security 
experts who have sent a letter, saying that the President's 
executive order is harmful to U.S. national security interests 
and beneath the dignity of our great Nation.
    I could not agree more. It is counterproductive.
    Let me just share with the members of this committee the 
conversations we had with King Abdullah of Jordan. Jordan has 
accepted 650,000--650,000--Syrian refugees. King Abdullah has 
made it clear that that has not presented a security challenge 
for the country of Jordan.
    The United States has accepted a few thousand Syrian 
refugees. There has been no example of any security threat. 
These individuals are vetted as extremely as we have for anyone 
coming to America, taking anywhere from 18 to 24 months. I 
think the members of this committee know that.
    We talk about that frequently. And, Mr. Chairman, with your 
permission, I would like to introduce three families who are 
with us today, because I think it is important to put a face--
these are not numbers. These are people who are escaping terror 
and persecution that are now making America their home to help 
build this great country, as many of our parents and 
grandparents came to this country to build a better life for 
their children.
    If I might, let me first introduce Mohammed and his family 
who arrived in the United States on November 16th of last year. 
Mohammed was a pastry chef in Damascus prior to fleeing to 
Jordan. Mohammed and his family remained displaced in Jordan 
for more than 4 years before resettling by the International 
Rescue Committee in Maryland.
    Thank you.
    Next, let me introduce, if I might, Aouad, who arrived in 
the United States last June. Aouad was in the farming and 
wholesale business in Daraa, Syria, before fleeing to Jordan. 
Aouad was displaced for 3 years before he was referred to the 
United States for resettlement. The International Rescue 
Committee also helped resettle Aouad in Maryland.
    Thank you for being here. I appreciate it.
    And finally, let me introduce Samir and his wife, who 
arrived in the U.S. in December. Samir owned a market in Homs, 
Syria. Samir and his wife fled to Egypt to escape the war where 
they remained for 5 years before being resettled by the 
International Rescue Committee in Maryland.
    Welcome.
    I am proud that you are here in the United States. I am 
particularly proud that you are in my State of Maryland.
    Our State has embraced diversity. Our State, I believe, is 
stronger because of the diversity that we have.
    It is very interesting, Mr. Chairman, and I will conclude 
on these remarks.
    Thank you all very much.
    When we look at Maryland counties that surround D.C., we 
have Prince George's County and Montgomery County, considered 
to be two of the strongest counties in the United States. Both 
have embraced diversity for decades, and it is a place in which 
we welcome immigrants.
    Mr. Chairman, we need to know Mr. Trump's policies as it 
relates to Syria and ending the conflict in Syria in the 
national interests of the United States. We do not have that 
information today. What we do have is a panel of experts who 
can help us deal with the humanitarian crisis that exists today 
and how we can be helpful in dealing with those needs.
    I welcome our panel.
    Senator Risch. Thank you, Senator Cardin. And I think all 
of us are anxious to see a specific policy regarding America 
moving forward regarding the Syrian situation. And that, I am 
sure, will be forthcoming. We all have our ideas about it. I 
think everyone is getting some input into that.
    Today, though, we are going to be talking about the 
humanitarian crisis. I suppose there will be some overlap, but 
today is a focus on the humanitarian crisis.
    And certainly, over the last 8 years and particularly the 
last 6 years, our policy in Syria has been drifting, to say the 
least. And it really needs focus. If we do not focus it, we are 
going to have the same result that we had over the last 6 
years. And it is unacceptable in the world, and it is 
unacceptable to America.
    We have five witnesses to testify today. First of all, we 
have three witnesses who are Syrian doctors who have come here 
to testify: Dr. Farida, Dr. Abdulkhalek, and Dr. Rajab. Our 
fourth witness is Mr. Neal Keny-Guyer. Senator Merkley has 
asked to say a few words about Mr. Keny-Guyer, and I will yield 
to Senator Merkley.

                STATEMENT OF HON. JEFF MERKLEY, 
                    U.S. SENATOR FROM OREGON

    Senator Merkley. Thank you very much, Mr. Chairman. I am 
very pleased to introduce my friend, Neal Keny-Guyer, the CEO 
of Mercy Corps, a Portland-based humanitarian and development 
nonprofit.
    Mercy Corps is a unique organization. It works in over 40 
countries, almost all of which are either in conflict, like 
Syria, or recovering from conflict or natural disaster.
    Mercy Corps is committed to innovation. Even in complex and 
fragile states, Mercy Corps works to make markets function 
better so that poor families can earn a living and lift 
themselves out of poverty.
    In places like Ethiopia, Nepal, Uganda, Mercy Corps' 
commitment to innovation is allowing them to help the poorest 
of the poor. Their commitment to innovation is impressive, but 
also their courage, working in some of the most difficult 
locations to be found on the globe.
    In considerable danger to their own team, Mercy Corps has 
assisted millions of Syrians over the course of the war. They 
are one of the largest U.S. Government partners providing 
assistance to Syrians affected by the war. And Neal's team 
continues to do all they can to alleviate the suffering of 
vulnerable individuals, vulnerable citizens.
    I look forward to hearing your testimony, Neal. Thank you 
so much for the work of your organization.
    Senator Risch. Thank you, Senator Merkley.
    Our fifth and final witness is the Right Honorable David 
Miliband, who is president and chief executive officer of 
International Rescue Committee.
    So with that, I am going to recognize all five of you to 
make statements. We are on a short string here, obviously, as 
we always are in the U.S. Senate. We would ask you to keep your 
remarks to no more than 5 minutes. However, your full remarks 
submitted in writing will actually be included in the record of 
this hearing.
    So with that, I am going to recognize our three doctors 
from Syria, and I guess I will let you decide on who is going 
to go first to present their statement.
    Doctor.

   STATEMENT OF DR. FARIDA, SYRIAN AMERICAN MEDICAL SOCIETY, 
                         ALEPPO, SYRIA

    Dr. Farida. Good morning. Chairman Risch, Ranking Member 
Cardin, distinguished members of the committee, thank you for 
the opportunity to appear before you today. My name is Dr. 
Farida. I am an OB/GYN from Aleppo. I am here today not only as 
a doctor, but as a wife, a mother, and a Syrian.
    Throughout the past 6 years, I have witnessed unspeakable 
horrors. I worked in M2 hospital in Aleppo, which was in the 
opposition-held area of the city. There, together with my 
fellow health workers, we risked our lives every day to save 
the lives of the others. We refused to leave until the very 
last minute.
    I was one of the many victims of chemical attacks, siege, 
cluster munitions, bunker-buster bombs, and finally, forced 
displacement.
    I left Aleppo on December 12, 2016, along with my husband, 
Dr. Abdulkhalek, and our 8-year-old daughter. In the months 
leading up to our displacement, I can only describe the events 
as hell.
    In my hospital, M2, my team and I treated many women with 
severe injuries. One woman came with shrapnel, which penetrated 
her womb, cutting the 5-month-old fetus into two pieces. It 
took three doctors at once to stabilize the patient. We saved 
her life, but her unborn baby lay dead on a nearby table, split 
in two from the waist down.
    Many other women died because they could not make it to the 
hospital due to the lack of ambulances and fuel, or because of 
the dangerous conditions on the roads. Instead, they bled to 
death in their homes, along with their newborn children.
    A hospital was the most dangerous place in Aleppo. My unit 
in M2 hospital was on the third floor. We were subjected to a 
daily barrage of rockets, barrel bombs, and cluster munitions.
    One day, I was performing a cesarean section when a missile 
struck the fourth floor, causing the ceiling to partially 
collapse. The surgical staff had to flee the room, but the 
doctors could not because we were forced to clean the debris 
out of the patient's abdominal cavity. Thankfully, we were able 
to save her life.
    After my hospital, M2, was partially destroyed by 
airstrikes, we tried to build a new hospital underground, but 
the siege prevented the materials from entering the city.
    I then moved to M3 hospital, where I worked until it was 
targeted by both airstrikes and chemical weapons.
    Through all of this, I had my daughter at my side. As a 
mother, how am I supposed to explain all of this to an 8-year-
old who has known nothing about violence, killing, and 
destruction? How am I supposed to protect her?
    I remember one day back in July when there was a chlorine 
attack near the hospital. She came running into the operating 
room, crying, unable to breath. I left the patient, gave my 
daughter oxygen, and held her close. What else could I have 
done?
    This broke my heart. That feeling of powerless to protect 
my child has broken me to this day.
    I wish I could say that these atrocities and the plight of 
so many Syrian families was unique to Aleppo. Sadly, this is 
not the case. They are happening right now in other parts of 
Syria. Presently, more than 600,000 Syrians live under siege.
    This must end. Humanitarian access must be granted to these 
areas, and the international community must work together to 
end this practice once and for all.
    In Idlib, East Ghouta, Daraa, Hama, and Homs, airstrikes 
have intensified, and the humanitarian aid has been nearly 
nonexistent. Three hospitals have been targeted by airstrikes 
in the past 2 weeks, and one of SAMS' nurses was killed by an 
airstrike last week.
    It is our duty as human beings to advocate to all involved 
parties on the ground to allow humanitarian access, and to 
finally hold those who violate international humanitarian law 
accountable.
    Later this month, my family and I will return to Syria to 
continue our work at a hospital in northern Syria. The reason 
is simple. It is our duty. As doctors, we have taken an oath to 
treat any and all patients, regardless of their affiliation. We 
have a moral obligation to try and save as many lives as 
possible, even if that means sacrificing our own.
    The Quran teaches us that ``to save one life is to save all 
of Humanity.'' Work with us to save lives.
    If you want to do anything, do it now. There is no time to 
wait, as Syrians continue to die day after day.
    Thank you.
    [The prepared statement of Dr. Farida follows:]

                    Prepared Statement of Dr. Farida

    Chairman Corker, Ranking Member Cardin, distinguished members of 
the committee: thank you for the opportunity to appear before you 
today. I am here today not only as a doctor, but as a wife, a mother, 
and a Syrian. Throughout the past 6 years, I have witnessed unspeakable 
horrors. I worked as an obstetrician in M2 hospital in Aleppo, which 
was in the opposition-held area of the city. There, together with my 
fellow health workers, I risked my life every day to save the lives of 
others. I refused to leave until the very last minute. I was one of the 
many victims of chemical attacks, siege, cluster munitions, bunker 
buster bombs, and finally, forced displacement.
    I left Aleppo on December 12, 2016, along with my husband, Dr. 
Abdulkhalek, and our 8-year old daughter. In the months leading up to 
our displacement, I can only describe the events as hell. Bodies parts 
scattered on the streets; blood everywhere; constant bombardment by air 
attacks; buildings reduced to rubble. In my hospital, M2, my team and I 
treated many women with severe injuries. One woman came with shrapnel 
which penetrated her womb, cutting the 5-month-old fetus into two 
pieces. It took three doctors at once to stabilize the patient. We 
saved her life, but her unborn baby lay dead on a nearby table, split 
in two from the waist down. Many other women died because they couldn't 
make it to the hospital due to the lack of ambulances and fuel, or 
because of the dangerous conditions on the roads. Instead, they bled to 
death in their homes, along with their newborn children. The women who 
were fortunate enough to make it to the hospital often couldn't wait to 
leave.
    A hospital was the most dangerous place in Aleppo. My unit in M2 
hospital was on the third floor, so we were subjected to a daily 
barrage of rockets, barrel bombs, and cluster munitions. One day I was 
performing a cesarean section when a missile struck the fourth floor, 
causing the ceiling to partially collapse. The surgical staff had to 
flee the room, but the doctor's couldn't because we were forced to 
clean debris out of the patient's abdominal cavity. Thankfully we were 
able to save her life.
    After my hospital, M2, was partially destroyed by airstrikes, we 
tried to build a new hospital underground, but the seige prevented the 
materials from entering the city. I then moved to M3 hospital, where I 
worked until it was targeted by both airstrikes and chemical weapons. 
From there I moved to Al Quds hospital, which was the last remaining 
hospital in the city. Through all of this, I had my daughter at my 
side. As a mother, how am I supposed to explain all of this to an 8-
year-old who has known nothing but violence, killing, and destruction? 
How am I supposed to protect her? I remember one day back in July when 
there was a chlorine attack near the hospital. She came running into 
the operating room, crying and unable to breath. I left the patient, 
gave her oxygen, and held her close. What else could I have done? This 
broke my heart. That feeling of powerless to protect my child had 
shaken me to this day.
    On December 11, 2016 I was working at M3 hospital when a patient in 
labor arrived. The few remaining staff were making preparations to 
deliver her baby when a chlorine bomb hit the hospital. We were unable 
to deliver the baby there, so I made the decision to travel by 
ambulance across the city to Al-Quds hospital, the last hospital still 
in operation. This was the only way to save her life and the life of 
the baby. I said goodbye to my husband and daughter. When I left, I 
thought to myself that it would be the last time I would see them. The 
drive to Al-Quds was extremely dangerous, and the scene we encountered 
in the streets was pure carnage. Bodies everywhere; burning cars; 
collapsed buildings. Those images will never escape my head. 
Thankfully, we made it to the hospital and were able to deliver the 
baby. But I couldn't leave my family; I needed to go back to them. So 
the ambulance driver and I embarked on the treacherous drive back to 
M3, taking heavy fire from helicopters overhead. Thankfully we arrived 
unharmed. The next day, the doctor was shot while attempting to drive 
to the hospital to check in on my health.
    I wish I could say that these atrocities and the plight of so many 
Syrian families was unique to Aleppo. Sadly, this is not the case. They 
are happening right now in other parts of Syria. Presently, more than 
600,000 Syrians live under siege. This must end. Humanitarian access 
must be granted to these areas, and the international community must 
work together to end this practice once and for all. In Idlib, East 
Ghouta, Daraa, Hama, and Homs, airstrikes have intensified, and 
humanitarian aid has been nearly nonexistent. Three hospitals have been 
targeted by airstrikes in the past two weeks, and one of SAMS nurses 
was killed by an airstrike last week. It is our duty as human beings to 
advocate to all involved parties on the ground to allow humanitarian 
access, and to finally hold those who violate international 
humanitarian law accountable.
    Later this month, my family and I will return to Syria to continue 
our work at a hospital in Northern Syria. The reason is simple: it is 
our duty. As doctors, we have taken an oath to treat any and all 
patients, regardless of their affiliation. We have a moral obligation 
to try and save as many lives as possible, even if that means 
sacrificing our own. The Quran teaches us that: ``to save one life is 
to save all of humanity.'' Work with us to save lives. If you want to 
do anything, do it now. There is no time to wait, as Syrians continue 
to die day after day.
    Thank you.

    Senator Risch. Thank you for your testimony.
    Doctor, you are next.

STATEMENT OF DR. ABDULKHALEK, SYRIAN AMERICAN MEDICAL SOCIETY, 
                         ALEPPO, SYRIA

    Dr. Abdulkhalek. Chairman Risch, Ranking Member Cardin, 
members of the committee, my name is Dr. Abdulkhalek. I am an 
ophthalmologist from Aleppo and was the director of M3 
hospital, one of three hospitals in the Syrian American Medical 
Society supported and besieged eastern Aleppo.
    This hospital was built in 2014 and constructed underground 
to protect the patients and staff from airstrikes. M3 was a 
small hospital, so we were often overwhelmed by the large 
number of patients and wounded arriving at our facility.
    We did our best to save as many lives as we could, but we 
were forced to make very difficult decisions. With the 
overwhelming number of wounded civilians and the limited 
resources that were available to us, we had to face the 
unimaginable task of deciding who to save and who to leave to 
die.
    Can you imagine having to make this decision? Yet, my 
colleagues all over the city and I faced this every single day.
    We asked for help from the international community many 
times. We communicated with U.N. agencies. We risked our safety 
and that of our families by appearing on international media. 
We did everything we could, yet help never arrived.
    The U.N. system is clearly broken, as it has no means to 
enforce its mandates and hold perpetrators accountable for 
these crimes.
    I was one of three doctors from Aleppo assigned to 
negotiate a plan for medical evacuations with the U.N. and 
World Health Organization. At first, these negotiations were 
moving well, with the cooperation of many parties, including 
Russia. However, as the regime and its allies began to take 
more territory, the cooperation disappeared and the evacuations 
never occurred. Instead, the attacks on medical facilities, 
schools, and markets escalated.
    Last year, on December 11, as we were trying to save lives 
and care for victims of barrel-bombing attacks, the hospital 
was attacked by a chlorine bomb. We immediately ran into the 
inner room, closed the door, and covered our faces. We then 
heard a knock on the main door and encountered three men who 
were suffocating from the gas. We brought them whatever 
medicine we still had available. Thankfully, we were able to 
save their lives, but many others who were outside died from 
the gas.
    After this attack, many hospital staff had to leave, 
fearing for their lives. Everyone was afraid that a second bomb 
would strike again.
    The previous day, another chlorine attack had hit the 
hospital. Most of the victims were children, and we only had 
one unit of oxygen. The medical staff worked tirelessly to try 
to pass the mask from one child to another, so that they would 
not suffocate.
    These chlorine attacks occurred after repeated attempts by 
the regime and its allies to destroy the hospital using barrel 
bombs and cluster munitions had failed. Instead, they resorted 
to chemical attacks to drive us out.
    I am asking you today to hold the perpetrators of these 
attacks accountable.
    It must be made clear that attacks on health care and the 
use of chemical weapons on civilians and health care workers 
are unacceptable and that international humanitarian law must 
be strictly enforced. This cannot be the new norm in Syria.
    In Homs, the 3-year siege has blocked the delivery of 
medical supplies, such as blood bags, serum bags, and 
antibiotics. In the past 6 months, the siege has extended to 
create a complete lack of movement for all materials and 
medications.
    Yet, the world does nothing.
    In East Ghouta, which is also under siege by the regime, 
there were more than 30 patients in desperate need of kidney 
dialysis medication earlier this month, after their medication 
had run out due to lack of aid deliveries. We pleaded with the 
U.N. and other international actors to deliver the lifesaving 
medication, but it was not until after three patients died that 
the medications were delivered. And even then, it was a SARC 
convoy, not a U.N. convoy, that entered the area.
    In 3 weeks, those medications will run out, and the 
patients' lives will once again be at risk. We need sustained 
humanitarian access.
    Constant violations of international humanitarian law, 
regular use of chemical weapons against civilians, besiegement 
of civilian areas, manipulation of humanitarian aid, and forced 
displacement are facts, not claims. I myself witnessed or was a 
victim of every one of these heinous acts.
    I am here today to ask the American Government for help. Do 
not let these acts continue. Do not let more innocent civilians 
suffer. Do not forget the human toll of this war--the refugees, 
the education gap, the destruction of the health care system.
    An entire generation has been lost. The world failed 
Aleppo. Now is your chance to help protect and save the 
millions of Syrians still caught in the middle of this 
conflict.
    Enforce international law. Hold perpetrators of war crimes 
accountable. Reform the U.N. aid system. Make the protection of 
civilians and hospitals a priority.
    I ask you to be a voice for us. Do not fail us again.
    Thank you.
    [The prepared statement of Dr. Abdulkhalek follows:]

                 Prepared Statement of Dr. Abdulkhalek

    Chairman Corker, Ranking Member Cardin, members of the committee: 
my name is Dr. Abdulkhalek. I'm an ophthamologist from Aleppo, and was 
the director of M3 hospital, one of three hospitals the Syrian American 
Medical Society supported in besieged eastern Aleppo. This hospital was 
built in 2014, and constructed underground to protect the patients and 
staff from airstrikes. M3 was a small hospital, so we were often 
overwhelmed by the large number of patients and wounded arriving at our 
facility. We did our best to save as many lives as we could, but we 
were forced to make very difficult decisions. With the overwhelming 
number of wounded civilians and the limited resources that were 
available to us, we had to face the unimaginable task of deciding who 
to save, and who to leave to die. Can you imagine having to make this 
decision? Yet my colleagues all over the city and I faced this every 
single day. We asked for help from the international community many 
times. We communicated with U.N. agencies; we risked our safety and 
that of our families by appearing on international media. We did 
everything we could, yet help never arrived.
    The U.N. system is clearly broken, as it has no means to enforce 
its mandates and hold perpetrators accountable for these crimes. I was 
one of three doctors from Aleppo assigned to negotiate a plan for 
medical evacuations with the U.N. and World Health Organization. At 
first, these negotiations were moving well, with the cooperation of 
many parties, including Russia. However, as the regime and its allies 
began to take more territory, the cooperation disappeared and the 
evacuations never occurred. Instead, the attacks on medical facilities, 
schools, and markets escalated.
    With the destruction of the largest trauma hospital, known as M10, 
in the eastern part of Aleppo by early December, our small M3 hospital 
became one of two functioning hospitals in the city, providing care to 
more than 200,000 civilians, including 85,000 children. Equipped with 
only one OR we had to expand to three ORs, but that was not enough. We 
had to use the floor of our operating rooms to accommodate two 
surgeries in each of them at the same time. Doctors were performing 
major surgeries on the floor, sometimes without anesthesia.
    Last year, on December 11, as we were trying to save lives and care 
for victims of barrel bombing attacks, the hospital was attacked by a 
chlorine bomb. We immediately ran into the inner room, closed the door, 
and covered our faces. We then heard a knock on the main door, and 
encountered three men who were suffocating from the gas. We brought 
them whatever medicine we still had available. Thankfully, we were able 
to save their lives, but many others who were outside died from the 
gas. After this attack, many hospital staff had to leave, fearing for 
their lives. Everyone was afraid that a second bomb would strike again. 
The next day, another chlorine attack on the hospital. Most of the 
victims were children, and we only had one unit of oxygen. The medical 
staff worked tirelessly to try and pass the mask from one child to 
another, so that they wouldn't suffocate. These chlorine attacks 
occurred after repeated attempts by the regime and its allies to 
destroy the hospital using barrel bombs and cluster munitions had 
failed. Instead, they resorted to chemical attacks to drive us out.
    I am asking you today to hold the perpetrators of these attacks 
accountable. Whether it be ISIS, the Syrian government, or any other 
actors, it must be made clear that attacks on healthcare and the use of 
chemical weapons on civilians and healthcare workers are unacceptable, 
and that international humanitarian law must be strictly enforced. This 
can't be the new norm in Syria.
    I am also asking the U.S. government to use its influence to help 
improve the U.N. aid delivery system. Currently, the aid is not 
reaching the people most in need, particularly in non-government areas. 
Instead, the aid system is being used to enrich government officials, 
as well as to punish civilians in non-government areas by denying them 
delivery of aid or removing essential items such as medications or baby 
formula. In Aleppo, aid for the city was disproportionately given to 
the western portion of the city. It even got to the point where 
residents of western Aleppo would sell their excess rations to 
residents of eastern Aleppo, for extremely high prices. This is 
unacceptable. The U.N. aid delivery system must be fair and equal, and 
meet the needs of all the beneficiaries.
    In Homs, the 3-year siege has blocked the delivery of medical 
supplies, such as blood bags, serum bags, and antibiotics. In the past 
6 months, the siege has extended to create a complete lack of movement 
for all materials and medications. The situation today is dire, as 
people now lack basic food elements, including bread and meat. There 
are many reported cases of malnutrition, particularly among children. 
Yet the world does nothing. In East Ghouta, which is also under siege 
by the regime, there were more than 30 patients in desperate need of 
kidney dialysis medication earlier this month, after their medication 
had run out due to lack of aid deliveries. We pleaded with the U.N. and 
other international actors to deliver the life-saving medication, but 
it wasn't until after three patients died that the medications were 
delivered. And even then, it was a SARC convoy, not a U.N. convoy, that 
entered the area.
    Constant violations of international humanitarian law, regular use 
of chemical weapons against civilians, besiegement of civilian areas, 
manipulation of humanitarian aid, and forced displacement are facts, 
not claims. I myself witnessed or was a victim of every one of these 
heinous acts. I am here today to ask the American government for help. 
Do not let these acts continue. Do not let more innocent civilians 
suffer. Do not forget the human toll of this war--the refugees, the 
education gap, the destruction of the health care system. An entire 
generation has been lost. The world failed Aleppo. Now is your chance 
to help protect and save the millions of Syrians still caught in the 
middle of this conflict. Enforce international law; hold perpetrators 
of war crimes accountable; reform the U.N. aid system; make the 
protection of civilians and hospitals a priority. I ask you to be a 
voice for us. Don't fail us again.

    Senator Risch. Thank you, Doctor.
    Dr. Rajab.

  STATEMENT OF DR. MOHAMED ABU RAJAB, SYRIAN AMERICAN MEDICAL 
                     SOCIETY, ALEPPO, SYRIA

    Dr. Rajab. Good morning. My name is Mohamed Abu Rajab. I 
was the director of M10 hospital in Aleppo, the largest trauma 
hospital in the eastern part of the city.
    The hospital was established by the Syrian American Medical 
Society, SAMS, in February of 2013. Because of the many attacks 
on the hospital, SAMS moved it underground, to protect its 
patients and medical workers.
    From the opening of the hospital in 2013 until it was 
bombed out of service on October 14, 2016, M10 was hit by 
airstrikes 22 times. In October 2016, the hospital was targeted 
four times in 1 week, removing it from service.
    I myself was injured by shrapnel in one of the attacks. 
Some of the shrapnel remains in my body to this day.
    Do you remember the young boy Omran whose photo became a 
symbol of the children of Aleppo? We treated him at M10. 
Thankfully, he survived his injuries. Sadly, his brother, Ali 
who was 11, died from his injuries.
    Most of our patients at M10 were children. So much death 
and suffering. And for what? The people of Syria simply want to 
be free.
    The use of bunker-buster bombs changed everything. It was 
not until the entrance of Russia into the conflict that we 
started to see these advanced weapons: bunker-buster bombs, 
parachute bombs, and more.
    We moved from one hospital to another, as each was targeted 
and taken out of service. We were convinced that we were going 
to die.
    When the final evacuations began, we were scared of what 
would happen to us. The Iranian militias were looting houses 
and killing anyone who resisted.
    We went to a checkpoint and boarded the infamous green 
buses. We ultimately made our way north to Idlib. We would have 
been arrested if we had entered a government-controlled area.
    This kind of forced displacement cannot be allowed to 
continue. I love Aleppo. I love Syria. It is my home. It is a 
part of me. I dream of one day returning to my home with my 
family and living in peace.
    I call on you to protect hospitals and health workers. This 
is a simple request.
    In addition, we must allow civilians to remain in their 
homes and not be forced to evacuate. When you live in freedom, 
you must help others to be free.
    The United States Government must be a voice for the 
innocent people of Syria and must be a moral compass for the 
parties involved.
    Thank you, sir.
    [The prepared statement of Dr. Rajab follows:]

              Prepared Statement of Dr. Mohamed Abu Rajab

    Good morning. My name is Mohamed Abu Rajab. I was the director of 
M10 hospital in Aleppo, the largest trauma hospital in the eastern part 
of the city. The hospital was established by the Syrian American 
Medical Society, SAMS, in February of 2013. It had four operating 
rooms, which made it the largest surgical center in eastern Aleppo. 
Because of the many attacks on the the hospital, SAMS moved it to an 
underground, fortified structure to protect its patients and medical 
workers in 2014. In March of 2015 we added a CAT scanner, the only one 
in eastern Aleppo.
    From the opening of the hospital in 2013 until it was bombed out of 
service on October 14, 2016, M10 was hit by airstrikes 22 times. In 
October 2016, the hospital was targeted five times in one week, 
removing it from service. I myself was injured by shrapnel in one of 
the attacks. Some of the shrapnel remains in my body to this day. Yet I 
was one of the lucky ones- I survived; many others did not. Do you 
remember the young boy, Omran, whose photo became a symbol of the 
plight of the children of Aleppo? We treated him at M10. Thankfully, he 
survived his injuries. Sadly, his brother, Ali who was 11, died from 
his injuries a week later. Most of our patients at M10 were children. 
So much death and suffering- and for what? The people of Syria simply 
want to live in peace and to be free.
    We built the hospital underground in order to protect the doctors 
and patients from the airstrikes. However, the use of bunker busters 
made this ineffective. It wasn't until the entrance of Russia into the 
conflict that we started to see these advanced weapons: bunker buster 
bombs, parachute bombs, and more. We moved from one hospital to 
another, as each was targeted and taken out of service. We struggled to 
eat, to sleep, and to protect our families. We were convinced that we 
were going to die. We lost many of our friends, colleagues, and family 
members.
    When the final evacuations began, we were scared of what would 
happen to us. The Iranian militias were looting houses and killing 
anyone who resisted. We went to a checkpoint and boarded the infamous 
green buses. Many people were locked in the buses for up to 20 hours 
without food, water, or bathrooms. Some of the militias forced people 
to remove all their clothes and wait in the buses in nothing more than 
their underwear. We ultimately made our way north to Idlib. We would 
have been arrested if we had entered a government-controlled area. This 
kind of forced displacement cannot be allowed to continue. I love 
Aleppo. It is my home. It is a part of me. I dream of one day returning 
to my home with my family and living in peace. But I need your help. I 
call on you to protect hospitals and health workers. This is a simple 
request. In addition, we must allow civilians to remain in their homes, 
and not be forced to evacuate. When you live in freedom, you must help 
others to be free. Who among us does not like peace? The United States 
government must be a voice for the innocent people of Syria, and must 
be a moral compass for the parties involved.
    Thank you.

    Senator Risch. Thank you very much, Doctor.
    We will now move to Mr. Keny-Guyer.

 STATEMENT OF NEAL KENY-GUYER, CHIEF EXECUTIVE OFFICER, MERCY 
                    CORPS, PORTLAND, OREGON

    Mr. Keny-Guyer. Chairman Risch, Ranking Member Cardin, 
Senators, I almost feel like I should just stop right now after 
this human face and the courage of our Syrian friends.
    And I just want to thank Drs. Farida, Abdulkhalek, and 
Rajab for their courageous work in upholding humanity. You 
touch us all. Thank you.
    I also want to say what a privilege it is to be with my 
friend David Miliband and his great organization, IRC. We work 
closely together, and proudly, around the world.
    And also, I have to thank my friend Jeff Merkley for, first 
of all, his incredible friendship and for his incredible 
support to Mercy Corps, to our State, and to our country.
    And finally, to Tim Kaine for all he has done on behalf of 
Mercy Corps, and, of course, for his friendship as well.
    While the politics on the ground in Syria have changed, the 
one thing that remains constant is the suffering of the Syrian 
people.
    And at this point, I really want to thank the U.S. 
Government, USAID, the State Department, for years of 
leadership in supporting the Syrian people. I think we need to 
recognize this. The U.S. has been the largest donor, the 
largest supporter, a leader in upholding whatever aid there can 
be for Syria over these years.
    Now, if I may, and Chairman Risch referred to it, Senator 
Cardin referred to it, I want to begin with Mercy Corps' 
situation in Turkey where recent events have diminished our 
ability to alleviate the suffering inside Syria.
    We have conducted one of the largest humanitarian 
operations from Turkey to Syria with the permission and full 
cooperation of the Turkish Government over the past 5 years.
    As you all may know, just a few weeks ago, the Turkish 
Government revoked Mercy Corps' registration to operate in 
Turkey or to deliver cross-border assistance. That has 
disrupted lifesaving assistance for 360,000 Syrians that we 
reach every month inside, and has effectively ended support to 
100,000 people in Turkey, Syrian and Turkish citizens.
    To date, our situation remains unresolved. We continue to 
seek a dialogue with Turkish officials so that we may resume 
our operations as soon as possible. We stand ready to correct 
any technical mistakes we might have made.
    Meanwhile, we have had no choice but to shut down our 
presence in Turkey while working closely with our partners and 
donors, including USAID and the State Department, to quickly 
fill any gaps in our assistance.
    Now we all know Turkey has been a generous global leader in 
humanitarian action. It welcomed more than 3 million Syrian 
refugees and boosts one of the world's most important policies 
on refugees: allowing them to earn a living for their families 
and offering them a path to citizenship.
    Like the United States, Turkey is a signatory to 
international humanitarian laws requiring protection of 
innocent civilians caught in the conflict.
    As an independent and impartial humanitarian organization, 
Mercy Corps' mandate is to deliver essential aid to civilians 
in need on all sides of the conflict. And I can tell you that 
we are very proud of our principled humanitarian efforts in 
Syria and around the world today.
    Of course, we all know the only solution to the suffering 
of Syrians is a political resolution. Humanitarian aid saves 
lives and it sustains hope. Only peace saves societies and 
nations. Strong, smart U.S. engagement remains a critical 
component.
    Distinguished Senators, I know this issue is tough, but 
please remain resolute in your push for a durable peace in 
Syria.
    Meanwhile, the scale of suffering is staggering. The dark 
statistics defy description. Imagine the combined populations 
of Oregon and Tennessee in need of humanitarian assistance, and 
that is Syria today.
    At a recent Helsinki conference on supporting Syrians, 
Humam, a young Syrian who works for Mercy Corps, told the 
assembly, he said, ``I'm waiting for the war to stop so I can 
go back and rebuild Syria. I believe that we can rebuild Syria 
better than before. I feel I have a lot of power, and I can 
bring my skills. I can now speak out and lead. I want the same 
for other youth as well.''
    And friends, let us remember Humam. Let us remember the 
human face of the people involved. And let us never lose hope, 
regardless of how complex or how dark sometimes the days seem.
    Thank you very much.
    [The prepared statement of Mr. Keny-Guyer follows:]

                 Prepared Statement of Neal Keny-Guyer

    Chairman Corker, Ranking Member Cardin: Thank you for inviting me 
to testify before the U.S. Senate Foreign Relations Committee today 
about ``Six Years of War in Syria: The Human Cost.''
    I am here in my capacity as Chief Executive Officer of the global 
organization Mercy Corps. In more than 40 countries around the world, 
we meet the urgent needs of today through emergency humanitarian 
assistance and disaster risk reduction, and help build stronger 
tomorrows by connecting people to the resources they need to strengthen 
their communities from within. Last year alone, we reached about 30 
million people around the world.
    Mercy Corps' global headquarters are in Portland, Oregon, and I 
would like to thank Senator Merkley for his outstanding and devoted 
support of our agency and our mission.
    Mercy Corps has been working in the Middle East and North Africa 
for more than three decades. For almost the entire duration of the 
conflict in Syria, we have conducted one of the largest humanitarian 
operations to help innocent Syrians trapped in the crossfire. We have 
worked through Syrian employees and partner organizations who have 
risked everything, even their own lives, to bring relief to civilians 
in their war-torn country. I talk to our teams there daily and visit 
the region often. We stand alongside the people inside Syria and 
support Syrians who are trying to rebuild their lives in Lebanon, 
Jordan, Turkey and Greece, in addition to the communities hosting them.
    While the situation on the ground has changed over the last year, 
the unacceptable levels of suffering of the Syrian people have remained 
constant. I would like to express my great appreciation and sincere 
respect for Drs. Farida, Abdulkhalek, Rajab, and their colleagues, as 
well as the White Helmets, all of whom have risked their lives and 
sacrificed greatly for the Syrian people.
    On behalf of my team and the hundreds of thousands of Syrians we've 
served over the last 5 years, I would like to express our deep 
appreciation for your attention to the intense suffering and human toll 
of this horrific war. Through the generous support of Congress, through 
robust funding of the International Affairs budget, the United States 
is helping save the lives of millions of the world's most vulnerable 
people. Your continued attention is also essential to keeping this war 
in the headlines in this country, and making sure that finding a 
political solution to resolving this conflict is the top priority of 
American diplomats.
                report on mercy corps' turkey operations
    I would like to begin by updating you on Mercy Corps' situation in 
Turkey, from where we have delivered lifesaving aid to Syrians, with 
the permission and cooperation of the Turkish government, for the past 
5 years. As you may be aware, just a few weeks ago, the Turkish 
government suddenly revoked Mercy Corps' registration allowing us to 
operate in Turkey. This action disrupts lifesaving assistance to 
360,000 Syrians every month inside Syria and effectively ends our 
support to 100,000 Syrian refugees and Turkish children, women and men 
in Turkey.
    To date, our situation is not resolved, and we continue to seek a 
dialogue with Turkish officials so that we may resume our operations as 
soon as possible. In the meantime, we are shutting down our presence in 
Turkey while working closely with our partners and donors, including 
USAID's Office of Foreign Disaster Assistance and the State 
Department's Bureau for Population, Refugee and Migration- both of 
which have been extremely helpful-, to quickly fill any gaps in our 
assistance to Syrians in Syria and to identify solutions for refugee 
services in Turkey.
    As you can imagine, this is a tough time for our team. I just 
received a note from one of our team members who has worked on the 
border for 4 years helping deliver almost 1 million food kits in Syria. 
He said: ``We are sure that these problems will end soon just we ask 
you not to give up, please don't say we have done our best and it 
didn't work. We are sure that you will get that registration. We are 
proud of this work, we are proud of Mercy Corps, we have not done 
anything wrong, and this is why we all have a clear conscious [sic].''
                  principled humanitarianism in peril
    The revocation of our Turkish registration is a deeply disturbing 
turn of events. Turkey has been a generous global leader in 
humanitarian action. A country of almost 80 million people, it has 
welcomed more than 3 million Syrian refugees and boasts one of the 
world's most progressive policies on refugees, allowing them to earn a 
living for their families and offering them a clear path to 
citizenship. Like the United States, Turkey is a signatory to 
international humanitarian laws and the U.N. refugee convention, 
requiring it to protect civilians caught in or fleeing conflict. It is 
an important ally of the United States and NATO and an essential 
partner in the fight against ISIS.
    We have not been given any official justification by Turkey for the 
closure of our program. And we are worried by the many news reports 
that other international aid groups may also soon be ordered to cease 
working in Turkey.
    It is important you know that as an independent and impartial 
humanitarian organization, Mercy Corps' mandate is to deliver essential 
aid to civilians in need in Syria on all sides of the conflict. If we 
were to appear to take sides, our credibility and our ability to reach 
the people in greatest need, as well as the safety of our staff, would 
be in grave jeopardy. We have lost count of the occasions when our 
staff had to cross as many as a dozen armed checkpoints and multiple 
lines of control when driving just 20 miles to deliver food. We were 
only able to do this because we had proven to all parties to the 
conflict that our assistance was going to vulnerable families--widows, 
children, elderly citizens and others enduring the direst of 
circumstances.
    Our situation raises the very real specter that principled 
humanitarianism is imperiled. I fear that it might no longer be just 
irregular militias or non-state actors blocking urgent assistance, but 
also members of the community of nations, even those most concerned 
about the well-being of the Syrian people. In 2014, despite U.N. 
Security Council resolutions requiring access to humanitarian aid be 
granted for all Syrians, we were forced out of working in Damascus 
because we stuck by our humanitarian principals and refused to stop 
providing humanitarian assistance to civilians in opposition controlled 
areas. The reality is Syria is a cauldron of the world's conflicting 
political and military agendas, and humanitarian aid, with its 
fundamental principles of impartiality and independence, risks becoming 
another casualty of this horrifying war.
    Syria would not be the first time principled humanitarian aid has 
been threatened. For two decades, we have witnessed an alarming trend 
in which humanitarian assistance falls victim to political and military 
calculations. But the degradation of the safeguards has accelerated, 
and Syria has become a laboratory for how that infringement of this 
space can lead to devastating consequences for innocent men, women and 
children.
    These grave challenges are not in the power of humanitarians like 
Mercy Corps to solve. They are political, and only member states of the 
United Nations can resolve them. We ask you, distinguished Senators, 
and the United States government to resolutely push for a lasting peace 
in Syria. After 6 years and hundreds of thousands lives lost and 
millions more ruined, finding a way out of this conflict must be a top 
priority for politicians and diplomats. Until then, we also urge you to 
continue America's strong financial support of the lifesaving 
assistance to the Syrian people and to exercise your political power to 
ensure that aid is provided to all innocent civilians in need, no 
matter who they are or where they have found safety.
                       a great human catastrophe
    The scale of the human toll of the war in Syria defies 
description--the dark statistics are staggering. More than 400,000 
people have been killed; 13.5 million are in desperate need of food, 
clean water and other humanitarian assistance--half of these are 
children. According to the United Nations, an estimated 6.3 million 
Syrians have fled their homes and are trying to survive inside Syria. 
Every day, another 6,000 or more people are displaced and 5 million 
people have fled to safety in neighboring countries.
    Mercy Corps continues to deliver lifesaving food, clean water and 
other essential supplies to about 470,000 innocent Syrian civilians 
each month. Our team members do this at great personal risk and with 
unwavering courage--we have lost five team members to this conflict and 
family members too. Just last week a Mercy Corps driver lost a son and 
a nephew to an airstrike.
    In December, as the Syrian government and Russian forces pounded 
the city of Aleppo, we received scant reports from our remaining 19 
team members in the city, who were delivering the last of our food 
stocks at night during the short lulls in the bombing. They were too 
afraid to turn on their lights, and made deliveries door-to-door 
carrying boxes of food in wheelbarrows. Everyone eventually made it out 
of the city--six of our team members were on the very the last green 
evacuation buses. We are so thankful they are now safe.
    The toll on our team has been great and we thank the many great 
heroes of this conflict, like the doctors sitting next to me, for their 
unwavering devotion and courage under these extremely dangerous 
conditions.
    Although the shape of the conflict has changed significantly over 
the past year, Syrians are still suffering enormously and in ways we 
cannot begin to express. Civilian protection remains the number one 
challenge with people caught up in the fighting, facing death every 
day. There have been few tangible advances by the international 
community to end the misery and deliver a sustainable and inclusive 
peace that reflects the needs and desires of the Syrian people.
    These headline descriptions of the human cost of the war are, I'm 
sure, familiar to everyone here. I find that the scale of the crisis is 
so massive that it is too much to take in. So I will break it down into 
four areas of focus: hotspots where the humanitarian crisis is most 
acute; access to food, clean water and sanitation; the impact of the 
war on adolescents and youth; and the effect on livelihoods.
                      hotspots and critical issues
    In central Syria, the government of Syria is using similar tactics 
in Eastern Ghouta as it did in Aleppo. Eastern Ghouta is facing a 
tightening siege designed to force the armed opposition groups and the 
350,000 plus civilians to surrender and accept some sort of 
`reconciliation' agreement \1\. In the lead up to such an agreement, 
already limited humanitarian access will be further restricted, and 
fighting is expected to displace a large number of people. We expect 
people to be in desperate need of shelter, water and sanitation, in 
addition to food and medical supplies.
---------------------------------------------------------------------------
    \1\ In this context, ``reconciliation'' is the process by which the 
government of Syria reasserts its control over an area by negotiating 
an agreement that centralizes local political groups, civil society and 
humanitarian bodies under its authority, and forcibly evacuates 
individuals and armed opposition fighters who are not willing to engage 
with this process.
---------------------------------------------------------------------------
    In Idleb governorate, many of the people evacuated from communities 
that have previously ``reconciled'' with the government are now caught 
in the middle of armed opposition groups vying for control of this 
area. No-one knows exactly what will happen in Idleb, but the fighting 
will inevitably catalyze more displacement of people and affect access 
for both commercial and humanitarian supplies, with severe implications 
for the well-being of the innocent people trapped there.
    In Raqqa, various military forces are launching an offensive with 
the aim of pushing ISIS out of the city and surrounding areas. Current 
humanitarian projections expect more than 432,000 people to be in need 
of humanitarian assistance in Raqqa governorate, with upwards of 
300,000 people potentially being displaced by the fighting.
    In southern Syria, the government of Syria and opposition forces 
are fighting over control of the JordanSyria border crossing. 
Simultaneously, airstrikes are targeting ISIS and ISIS affiliates. Both 
of these developments are forcing large numbers of people to flee their 
homes. They urgently need shelter, food, and other basic supplies, in 
addition to small amounts of cash assistance so that they can buy what 
they need from local markets.
    In short, countless innocent children, women and men across Syria 
continue to bear the brunt of the war.
    For years now we, as humanitarians, have delivered these same 
reports:

    <bullet> Indiscriminate attacks are killing civilians and damaging 
civilian infrastructure such as hospitals and schools.

    <bullet> All parties to the conflict are using humanitarian 
assistance as a pawn, by withholding permission to reach communities 
under siege and leveraging humanitarian access as a bargaining chip at 
the negotiating table.

    <bullet> Humanitarian access is denied or heavily obstructed even 
though unfettered access is required under international law.

    <bullet> Syrian humanitarian workers, who account for almost the 
entirety of the humanitarian response inside Syria, are targeted and 
criminalized for trying to help their communities survive.

    I wish to be clear: These actions are illegal. They violate the 
laws of armed conflict and international humanitarian law. This 
flagrant violation of international law by warring parties in Syria 
sets the world back by decades, and undermines the moral authority of 
the international community. We need the international community, 
including strong U.S. leadership, to exert all possible leverage to 
ensure that civilians are protected, that humanitarian assistance is 
allowed without any precondition or obstruction, and that humanitarians 
are allowed to continue to work legally in support of their 
communities, with their safety guaranteed.
             food, water and sanitation: the basics of life
    War tears down humanity in many different ways. As I share 
examples, I wish to highlight how Syrians are trying to maintain their 
humanity and dignity.
    Food insecurity and the risk of hunger is one of the most serious 
issues in Syria, with an estimated 7 million people currently food 
insecure and a further 2 million at risk of food insecurity. A note of 
hope from our food security experts is that despite the real threat of 
food insecurity and hunger, levels of malnutrition where food aid has 
reached people are relatively low in comparison to malnutrition in 
other conflict zones. This shows that the food assistance provided by 
the United States and other nations--through partners like Mercy 
Corps--is working.
    With no end to the conflict in sight, inaccessibility, besiegement 
and displacement will continue to cause food insecurity on a massive 
scale. In response to these needs, since 2012 Mercy Corps has partnered 
with USAID's Office of Foreign Disaster Assistance and Food for Peace--
funded by the International Affairs budget and specifically the 
International Disaster Assistance and Food for Peace Accounts. Thanks 
to authorities and funding Congress has provided--and which Chairman 
Corker has championed--Mercy Corps has been able to locally procure 
large quantities of wheat in Turkey to deliver into Syria.
    Among many interventions, since 2013, Mercy Corps has provided 
flour to bakeries in order to ensure affordable bread prices for 
families, keep bakers in business and support a functioning local 
economy. At one point we were providing 19 bakeries with 50 percent of 
their monthly flour needs, targeting communities in greatest need. 
Bread is a staple of the Syrian diet, and one bakery alone--which 
serves 40-some villages--requires some 14 metric tons of flour per day 
to keep pace with the needs of their residents. Thanks to our 
deliveries of flour, the price of bread was kept to 65 Syrian pounds, 
whereas in other areas the price was more than twice as high, closer to 
150 Syrian pounds. Separately, it is worth noting that by purchasing 
food in the region, American taxpayers achieved more impact for their 
dollar, and supplies were delivered quickly and at a lower cost, while 
stimulating local markets.
    Another basic need of human life is clean water, sanitation and 
hygiene. Because of disrepair and destruction, water and sewage systems 
are only functioning at a fraction of their previous capacity, and 
shortages of electricity limit their operation in many places. As a 
result, nearly 15 million people in Syria urgently need access to 
water, sanitation and hygiene services.
    One of the people we helped through our water and sanitation 
programming is Mahmoud, a father of five. The family lives in a small 
camp just outside of Aleppo, where they found relative safety after 
fleeing attacks by Syrian government forces and ISIS. When they 
arrived, they found that water was more expensive than they could 
afford. It had to be trucked in from distant areas and was inconsistent 
in quality. There were few latrines or washing facilities in the camp, 
which led to the spread of disease, the inability to wash clothing or 
cooking utensils, or to practice personal hygiene. As we all would be 
as parents, Mahmoud was desperately concerned for the safety and health 
of his children, and he could not afford the water they needed to stay 
healthy.
    In response to the needs of people like Mahmoud and his children, 
Mercy Corps quickly provided toilets and showers, as well as clean 
water to cover the needs of the camp. After our intervention, Mahmoud 
said he and his family are less worried about the spread of disease 
since they now have access to sanitation and hygiene facilities. Mercy 
Corps continues to work hard to help families like Mahmoud's to 
strengthen access to clean water and sanitation services. Although 
Mahmoud's family and others like them continue to face enormous 
challenges, interventions like ours show it is possible to make their 
lives a little better and a little safer.
                  a generation we can't afford to lose
    An entire generation of Syrian children, teenagers and young people 
are growing up in a war zone. Nearly half the 4.8 million Syrian 
refugees in the region are children, and more than 8.5 million children 
and young people in Syria need immediate humanitarian support. Nearly 
one in four of these young people is a teenager. The impact of the war 
on them is horrific: a recent report found that 652 children were 
killed last year, 255 in or near a school. Children's deaths rose 20 
percent and injuries rose by 25 percent in 2016. Instead of worrying 
about their schoolwork, they are terrified they or their families might 
be killed, and worry about whether they will have food to eat and clean 
water to drink. They are frustrated and isolated--young women in 
particular rarely leave their homes. Young men and women both 
experience a sense of powerlessness and constant humiliation.
    We fear two related consequences of this situation: a lost 
generation of youth and social instability. Widespread deprivation and 
prolonged stress among Syrian youth seriously affects their well-being. 
Young people are suffering from mental health issues and are more 
likely to take part in high-risk behavior. Isolation and hopelessness, 
combined with experiences of violence and injustice, are also pervasive 
among Syrian adolescents. These make a dangerous recipe for producing 
violent attitudes and actions. Without positive social connections and 
prospects for their future, young people affected by conflict and 
displacement may become a destabilizing force in their communities and 
in the region.
    But it is possible to address these issues. In collaboration with 
UNICEF's No Lost Generation initiative launched in 2013, Mercy Corps 
has been working hard to empower and address the needs of adolescents 
impacted by the crisis in Syria. Through years of hands-on experience, 
we know that the key to supporting this generation is to promote 
learning and psychosocial resilience, build social understanding and 
peace and help youth set their own goals for the future. We also know 
that if you fail to address the effects that years of trauma have had 
on young people's mental health, other efforts, such as education and 
vocational training, will not be as effective.
    Mercy Corps has developed a model for helping young people's 
psychosocial needs, but these interventions need support. I urge the 
Committee to increase funding for programming that meets psychosocial 
and mental health needs of adolescents, including through fully funding 
humanitarian accounts and Economic Support Funds in the FY 2018 budget 
process.
    At the Helsinki Conference in January, Humam, a young Syrian and 
one of our Mercy Corps team members, told the assembly: ``For me, I'm 
waiting for the war to stop so I can go back and rebuild Syria. I 
believe that we can rebuild Syria better than before. I have a lot of 
power that I bring from my skills. I can now speak out and lead. I want 
the same for other youth too.''
    As Humam expressed, the young Syrians of today will build the Syria 
of tomorrow. They are at a crossroads in their lives--because of their 
age and because of the hardship they face every day. Although they are 
living in the darkest of hours, Mercy Corps sees immense possibility in 
Syrian youth. We see changemakers full of incredible strength and 
resilience, and capable of creating peace. They will decide today the 
fate of our world tomorrow, and have the ability to drive lasting 
change.
             helping syrians regain control of their lives
    A bright spot amid this misery is our success helping Syrians 
regain a measure of control over their own lives, which they tell us is 
their deepest desire. It is imperative that we do much better at 
learning from Syrians who have found positive ways to cope with this 
disaster and to support themselves. Right now, Mercy Corps is 
conducting a study to identify positive strategies that Syrians are 
using, so that we can support their adoption across the country.
    Already we are using our deep understanding of the local context 
and the needs of the people we serve to undertake longer-term, 
sustainable programming. And we have been able to do this even in the 
midst of siege by working with small-business owners to build ``siege-
resistant businesses.'' Abdulaziz, a blacksmith, was forced out of 
business by a siege on his community; he couldn't continue because of 
shortages in the electricity and fuel he relied on, as well as 
increases in the price of the raw materials he needed. Thanks to a 
grant from one of Mercy Corps' partners, Abdulaziz has been able to 
open a new grocery store, which he hopes will be less vulnerable to the 
impacts of siege than the blacksmith business; there is a greater 
demand for groceries, and the business itself is less reliant on 
electricity and fuel.
    Across Syria, there are similar opportunities for longer-term 
programming. Our experience shows us that it is critical to take a 
holistic, multi-faceted approach to livelihoods and economic 
opportunities. We have to work across the individual, business and 
market levels. Vocational training alone is not enough. For example, 
providing agricultural supplies to farmers as well as small loans to 
start new businesses and get businesses back into operation will 
support market development and provide individuals the means to support 
themselves and their families.
                      recommendations for congress
    Although the situation is bleak, there are a number of concrete 
steps that Congress can take now to help the people of Syria. I would 
like to leave the Committee with the following five key recommendations 
that we hope will lessen their suffering:

    1. Access. We ask that you continue to raise the primacy of 
humanitarian access with all actors inside and around Syria.

    2. Funding. Provide adequate funding for the U.S. government to 
lead globally and reject any cuts in the President's FY 2018 
International Affairs request. Diplomacy, development and lifesaving 
humanitarian aid supported through the foreign aid budget are critical 
to help not only the people of Syria, but also communities around the 
world that are suffering severely. We ask that you fight in FY 2018 for 
no less than $60 billion for the International Affairs budget, which 
would still be only 1 percent of the federal budget. With growing 
needs, it is more important than ever to shore up funding for the 
various humanitarian and development accounts in the FY18 budget. We 
ask that you fight for funding in the FY 2018 appropriations bills for:

        <bullet> International Disaster Assistance (IDA), and Food for 
        Peace (FFP) and the Migration and Refugee Account, which are 
        critical to providing lifesaving aid; and

        <bullet> Economic Support Funds, which provide development 
        assistance to fragile states and, in the case of Syria, can lay 
        the groundwork for community-level reconciliation and 
        livelihoods.

    3. Continue to provide and expand authorities to allow for the 
appropriate response, including local and regional procurement, cash 
and vouchers. We would appreciate continued support for letting our 
field team members, in partnership with USAID, utilize the most 
effective response possible to incredibly complex crises. We appreciate 
that the Chair has been a champion of using the most effective 
interventions possible in foreign aid, which in many cases are through 
local and regional procurement of commodities or providing cash or 
vouchers to vulnerable families. The use of vouchers and cash for 
internally displaced people and Syrian refugees has not only empowered 
families with the dignity to buy what they most need, but also helps to 
keep markets functioning, allowing for some degree of normalcy in a 
completely abnormal environment.

    4. Increase support for adolescents. Increase funding for 
psychosocial, livelihoods and education for adolescents and others to 
help them recover from years of trauma and harness their energy for 
building a bright future.

    5. Diplomacy. Humanitarians are not the solution to the Syrian 
crisis. I urge you to work with the Trump administration to urgently 
seek a political solution to the war in Syria in line with the Geneva 
Communique and UN Security Council Resolution 2254. Our world leaders 
must take decisive action and push for a lasting peace. The Syrian 
people have paid too high of a price for six long years. The human 
misery must end.
                           our call to action
    Less than a year ago, I stood with the global humanitarian 
community in Istanbul at the United Nations' first-ever World 
Humanitarian Summit. There in Turkey, world leaders from government, 
civil society and business stood up for our common humanity and action 
to prevent and reduce human suffering. Then, as now, the government and 
people of Turkey demonstrated their hospitality, and their 
indispensable role at the forefront of humanitarian action. At this 
historic summit, President Erdo?an stated in his closing remarks, ``As 
the participants of this summit, we all know very well that pain knows 
no color, ethnicity, language or religion.'' We could not agree more 
and want to continue to support Turkey in what Mr. Erdo?an rightfully 
called its ``vital role in the name of humanity.''
    Mr. Chairman, Distinguished Members of the Committee, we hope that 
the spirit of that summit will endure and its promises will be 
realized. We thank this Committee, the United States government and, 
most of all, the American people for your lifesaving support for the 
people of Syria. We know that principled humanitarianism is directly 
connected to our deeply held American values about what is right and 
good in the world. Know that Mercy Corps stands firmly committed to 
alleviating the long, intense suffering of the millions of Syrians 
trapped in this great human catastrophe.
    Thank you.

    Senator Risch. Thank you.
    And finally, the Right Honourable David Miliband.

 STATEMENT OF THE RT. HON. DAVID MILIBAND, PRESIDENT AND CHIEF 
EXECUTIVE OFFICER, INTERNATIONAL RESCUE COMMITTEE, NEW YORK, NY

    Mr. Miliband. Chairman Risch and Senators, it is a real 
honor to be back in front of this committee, sitting alongside 
some extraordinary humanitarian leaders.
    I want to echo what Neal has said about the really humbling 
work that is done by the Syrian doctors. We are proud to work 
alongside of them inside Syria.
    I also echo the mutual admiration society that we are 
creating for each other. Mercy Corps is an organization that we 
are proud to stand alongside and to admire.
    I will not take long for this opening statement. You have 
the 10-page version, I think, in your papers, and I know that 
there will be many questions. I also need to apologize that, 
given the slightly later start time, I am going to have to 
leave at about 1 o'clock, and I do apologize for that.
    The International Rescue Committee is a refugee 
resettlement agency in 29 U.S. cities, and we are an 
international humanitarian aid agency. We have over 1,000 staff 
operating inside Syria today, and 2,000 staff in the four 
neighboring states.
    In the south of Syria, we are proud to be the largest 
supplier of health care, but our efforts are currently impeded 
by a recent uptick in fighting between Syrian forces and 
opposition groups; by airstrikes on medical facilities--we lost 
eight of our hospitals in 2016 to airstrikes; and by a local 
ISIS affiliate capitalizing on the chaos in the south.
    In the northeast, I was in Iraq seeing some of the cross-
border work last week. In the northeast of Syria, we support 
Iraqis fleeing violence from Mosul entering Syria as refugees, 
and Syrians displaced by counter-ISIS operations.
    The U.N. estimates that 400,000 more people could be 
affected as Raqqa operations intensify in the next few months.
    In Idlib Province in the northwest of the country of Syria, 
IRC provides emergency assistance and safe classrooms to locals 
and those forced from eastern Aleppo.
    I have to report to you that increased infighting among 
opposition groups, and air attacks from the regime and their 
Russian supporters, are threatening civilians and our ability 
to serve them.
    I will not repeat all the statistics that you have heard or 
that you know. I do want to point to one statistic that still 
shocks me in the evidence I supplied. Subsequent to three U.N. 
Security Council resolutions, the head of U.N. operations has 
reported that less than 1 percent of those Syrian civilians 
under siege inside Syria have been reached by humanitarian 
operations, not because of inefficiencies in the U.N. but 
because of deliberate blockage by the regime and, in some 
cases, by opposition forces.
    You will also know that 5 million Syrian refugees have fled 
to Jordan, Lebanon, Turkey, and Iraq. From my visit to Lebanon 
last week, the priorities are clear. They are work, protections 
for women and kids, and education.
    Chairman and Senators, we point out in our statement that 
there are three fundamental choices that now face the United 
States Government and the Senate. The first is about politics 
and diplomacy, because the truth is the U.S. has been absent 
from the recent public diplomatic efforts. Russia, Turkey, and 
Iran have put themselves center stage.
    There is not just a war without end in Syria. There is also 
a war without law. And a principled American voice is needed to 
articulate support for international humanitarian law and 
accountability for those who violate it. The truth is, if the 
U.S. does not provide this voice, no one else will.
    The second is about foreign assistance. We understand that 
major cuts or proposals for major cuts to foreign assistance 
will be announced tomorrow. This will be a tragedy for the 
people of Syria and for the region. They would translate into 
excruciating choices not just for NGOs but for the people that 
we serve. It would also set back U.S. strategic leadership.
    I hope you will allow me to say that, from my own time in 
the U.K. Government, and now running an NGO, I know that U.S. 
humanitarian leadership is second to none. Bilaterally and 
through the United Nations, the U.S. provides 40 percent of 
support for the United Nations High Commissioner on Refugees.
    The U.S. genuinely drives the global system. The State 
Department and USAID have led the global community in 
humanitarian response for decades. They project American ideals 
and protect American interests all for less than 1 percent of 
the Federal budget or for 0.2 percent of national income.
    The OFDA, the Office of Federal Disaster Assistance, 
estimated that some 6.9 million Syrians in fiscal year 2015 
were helped by the United States. That should be a benchmark 
for the future. It would be a genuine tragedy for the U.S. 
administration to lose faith in the value of humanitarian aid 
just as it is proving it is worth.
    Finally, the third choice is about refugee resettlement. 
Last week's executive order suspending the resettlement program 
and reducing resettlement numbers is a stark message to Syrians 
and to allies in the region, including, I am sorry to say, 
Iraqis who have worked with and risked their lives with and for 
the United States.
    The pause in the program, the uncertainty about its future, 
is a gift for those who would argue that the United States will 
not help refugees in need if they happen to be Muslim. That is 
not true, but it is a calumny that is put around day by day 
around the region.
    In Lebanon and Iraq, I spoke with people affected by the 
executive order. These are some of the most vulnerable people 
in the world, and the most vetted entrants into the United 
States. There already is extreme vetting for refugees who want 
to get here.
    The review that is being done is perfectly within the 
rights of any new administration. What is wrong is a suspension 
of the whole program that will lead to people going to the back 
of the queue because of the pause that is under way.
    I would urge this committee that, if there is to be a 
review, it does not need to take 4 months. A 20- or 30-day 
review could get to the bottom of this refugee resettlement 
issue and the vetting arrangements quickly and allow the 
program to continue.
    Just remember this: After 9/11, the pause in the program 
will was only 2 months. For no reason at all, there is now a 4-
month pause in the program despite the 120 leaders of the 
American national security system who said that the program 
stands.
    Mr. Chairman, Senators, there can be no effective foreign 
policy without effective humanitarian policy. I hope that is a 
message that this committee can take up with pride and with 
gusto.
    Thank you very much, indeed.
    [The prepared statement of Mr. Miliband follows:]

             Prepared Statement of Rt. Hon. David Miliband

    Chairman Corker, Ranking Member Cardin and distinguished Senators: 
The humanitarian dimension of the Syrian war has lacked for strategic 
analysis and informed prescription, so I congratulate you for your 
ongoing commitment to understand and address the humanitarian 
catastrophe unleashed across the region and beyond. I spent last week 
in Lebanon and Iraq, and am happy to contribute to your full committee 
hearing from the perspective of the International Rescue Committee, 
which is working across the full arc of this crisis, from Syria to the 
four neighboring states, to the refugee transit routes in Europe, and 
to refugee resettlement for the lucky few who are admitted to start new 
lives in the U.S. We are able to do so because the United States 
government has long been a valued partner. The State Department, 
through its Bureau of Population, Refugees, and Migration (PRM), and 
USAID, through its Office of Foreign Disaster Assistance (OFDA) have 
led the global community in humanitarian response. Likewise, PRM has 
shepherded the refugee resettlement program for decades with bipartisan 
support. Rarely has there been greater need for this U.S. leadership.
    Nearly 18 months ago, I spoke to the committee about the human 
suffering inside Syria and the impact on its neighbors. During the 
summer of 2015, attention on Syria and its refugees had skyrocketed, 
with stunning images in the news of families setting out across the 
Mediterranean. But we now know that the worst was yet to come. The last 
18 months have been the worst yet for civilians inside Syria. Since I 
last testified to the Committee, the introduction of Russian airpower 
has ushered in a new phase in the conflict--with devastating and 
deliberate effects on civilians and civilian infrastructure. At least a 
hundred thousand more Syrians have been killed; hundreds of medical 
facilities have been purposely attacked (including those of IRC); the 
number of Syrians in need of humanitarian assistance has ballooned by 
over a million and it is harder than ever to reach them; nearly 700,000 
people live under siege and millions more, nearly half of them 
children, live beyond the reach of humanitarian organizations. \1\ Over 
half of all Syrians--some 12 million people--have now been forced from 
their homes, either as refugees or internally displaced.
---------------------------------------------------------------------------
    \1\ Joint Statement on Syria- WFP, UNICEF, OCHA, WHO, UNHCR Jan 16, 
2017.
---------------------------------------------------------------------------
    An additional million Syrian refugees have flowed into the already 
fragile political and economic systems of Jordan, Lebanon, Turkey, and 
Iraq--bringing the number of Syrians seeking refuge in these front line 
states to nearly 5 million. It is vital to recognize the extraordinary 
openness of these countries to Syrian refugees, while also 
understanding that it has become harder and harder to be a Syrian 
living in these countries. After 6 years of war, most refugees--from 
doctors and dentists to farmers, laborers and taxi drivers--have 
depleted their savings and are living in poverty, with limited access 
to legal work, struggling to afford healthcare and rent and in too many 
cases unable to send their children to school. The education of Syrian 
refugee children is probably one of the best illustrations of the 
strain that the influx has placed on surrounding countries and the 
failure of the humanitarian aid system to keep up. In Lebanon alone, 
despite advances in enrollment numbers in the last school year, nearly 
a quarter of a million Syrian children are still out of school, many 
for 3 years or more. Across neighboring countries, that number rises to 
700,000 \2\--threatening significant parts of an entire generation.
---------------------------------------------------------------------------
    \2\ http://www.un.org/apps/news/
story.asp?NewsID=53145#.WMTG4NLyt0w.
---------------------------------------------------------------------------
    The last time I spoke to this Committee, what had been a civil 
intra-state conflict had evolved into a regional humanitarian disaster. 
But the failures of the international community to respond 
appropriately--to resolve the conflict, to protect civilians, to 
provide adequate aid to the displaced and to host countries, and to 
provide durable solutions, including resettlement for refugees--have 
now engendered consequences far beyond Syria and the region. This is 
not just about refugee flows. The conflict has exposed the divisions in 
the U.N. Security Council, undermined International Humanitarian Law 
(IHL), and in the assault on Aleppo plumbed new depths for the abuse of 
civilians, including well sourced claims of renewed use of chemical 
weapons. \3\
---------------------------------------------------------------------------
    \3\ Fourth report of the Organization for the Prohibition of 
Chemical Weapons-United Nations Joint Investigative Mechanism 19 
October 2016.
---------------------------------------------------------------------------
    The U.S., given its unique place in the global system, now faces 
three significant choices that will have long term implications both 
for the humanitarian situation and for regional politics.
    The first major choice is about military and diplomatic 
commitments. This is not an area where humanitarian organizations have 
locus, but our staff and beneficiaries bear the consequences of the 
decisions that are made, and so have a great interest in the issues on 
the table and the players at the table. Since the collapse of the 
Kerry-Lavrov dialogue last fall, the U.S. has been notably absent from 
the public diplomatic efforts to achieve a political solution in Syria. 
Russia, Turkey and Iran have put themselves center-stage. The U.S. 
needs to decide what role it wants to play, and who it wants to ally 
with, in the debates about the future of those parts of Syria still 
outside government control, and the future shape of national 
government. This cannot be considered independent of the commitments to 
defeat Isis/Daesh in Iraq, where the U.S. again faces the conundrum 
that Iran has the same declared enemy, but where victory threatens to 
extend her influence. From the point of view of our staff and 
beneficiaries, it is vital that there is a strong and principled 
American voice articulating support for international humanitarian law 
in the conduct of war(s), and for inclusive and legitimate governance 
to underpin the peace. If the U.S. does not provide this voice, no one 
else will.
    The second choice concerns the contribution of humanitarian aid to 
the relief of suffering and the promotion of stability in the region. 
Tomorrow we will learn the Administration's plans for U.S. foreign 
assistance. Major cuts have been foreshadowed in advance briefing. 
These are the very resources that are used to throw a lifeline to the 
families caught up in this crisis in the form of basic food, water and 
sanitation, medical assistance, protection for women and girls and 
education. My staff make use of these resources across the region: for 
example when areas of Fallujah, Sal ah Addin, or Mosul are retaken from 
Isis/Daesh, humanitarian workers are the next to enter. In Lebanon, 
one-quarter of the population is now Syrian refugees. Allies such as 
Jordan are struggling with the same disproportionate responsibility, 
hosting over 1 million Syrian refugees. The humanitarian and economic 
assistance provided is not just a moral choice, but a strategic 
necessity. An insufficient humanitarian and development response 
sustains and begets further crises. This is evident in the flows of 
Syrian refugees to Europe, at great risk to refugees' lives and with 
great political consequences for Europe. These flows began 3 years into 
the war, when refugees' savings were depleted and sufficient aid, work, 
and education for their children remained out of reach. It is also 
demonstrated by the fact that U.S. troops are helping to clear some 
parts of Iraq of terrorist groups for the third time; in part because 
insufficient investment in humanitarian response, development progress, 
and political reform has each time allowed extremists to take hold. In 
the midst of an unprecedented global displacement crisis, now is no 
time to be scaling back these efforts.
    Third, there is the question of the interaction of flagship 
domestic policy with foreign policy. The future of the Middle East is 
about hearts and minds. Last week's revised Executive Order--which 
suspends the refugee resettlement program in the U.S.--together with 
the reduction in U.S. resettlement numbers from 110,000 to 50,000, is a 
stark message to allies in the region coping with the humanitarian 
crisis. It is good that Iraqis are no longer banned from travel to the 
U.S., but Iraqi refugees remain subject to the 4-month pause on the 
resettlement program. It is good that Syrian refugees now no longer 
face an indefinite ban, but they are affected by the 4-month pause too. 
In all 60,000 refugees approved for entry to the United States, after 
extensive vetting, now face a life on hold or in reverse. Resettlement 
is an American success story, and the 4-month halt to the program, with 
uncertainty about what lies beyond, is a gift for those who would argue 
that America will not help Muslims in need.
                              inside syria
    The devastation in Aleppo is to be set out for you by some of the 
doctors doing heroic work there. In late 2016, the conflict reached a 
new low for brutality and destruction. In the final assault on Aleppo 
there was deliberate targeting of civilians, hospitals, schools, and 
public utilities, with starvation and the denial of medical care used 
as weapons of war that brought the eastern part of the city and its 
inhabitants to their knees.
    Last week, the U.N. Human Rights Council released a report on the 
conclusion of the Aleppo offensive that affirms what INGOs like the IRC 
have long asserted--that Syrian civilians fell victim to war crimes 
from all parties. Air strikes destroyed or otherwise rendered all 
hospitals in eastern Aleppo out of service--meaning even a minor injury 
or illness could turn life threatening. As the assault reached its 
final and deadliest stages, daily Russian and Syrian airstrikes claimed 
hundreds of lives. The report also alleges use of chlorine bombs, 
resulting in hundreds of civilian casualties. Rebels also abused 
civilians, firing shells indiscriminately into western Aleppo. In the 
final days of the siege, the U.N. reported the killing and 
``disappearing'' of civilians as well as forced conscriptions.
    The IRC has been delivering aid into Syria since 2012, but our 
experience thus far did not diminish the shock at what has befallen the 
people of Aleppo. As civilians fled for their lives in the cold and 
snow toward Idleb--our staff were there to meet them and provide 
assistance. We are the largest health care provider in Southern and 
Northeast Syria. Last year, thanks to funding from USAID, over 900,000 
Syrians received primary, reproductive, and trauma care from the IRC 
and our partners. Looking beyond the emergency, the IRC supports 
schools in conflict-affected parts of Idleb province. Our classrooms 
provide safety and stability to thousands of children--many have known 
nothing but war and, according to a new IRC survey, are a full 6 years 
behind in their studies. \4\ Our livelihoods programs (``cash 
distribution'', and the like) are a lifeline to Syrians struggling to 
pay rent and purchase food and other essential items for themselves and 
their families.
---------------------------------------------------------------------------
    \4\ IRC Report: Impact of War on Syrian Children's Learning: 
Testing Shows Gaps in Literacy and Math skills 12 March 2017.
---------------------------------------------------------------------------
    If violence against civilians has characterized the Syrian 
conflict, so too has violence against aid workers. IRC programming not 
only connects us closely with the victims of violence inside Syria, it 
has made us a target of violence as well. Although the U.N. Security 
Council passed a resolution (2286) last spring condemning attacks on 
medical facilities, hospitals and humanitarian operations continue to 
be targeted at an alarming rate. IRC-supported clinics and hospitals 
were bombed eight times in 2016, including the destruction of two 
facilities in a single week in October. Another IRC-supported hospital 
was hit just last month in southern Syria. These types of attacks on 
aid workers and health facilities are commonplace and devastating, 
affecting thousands of Syrians who rely on these facilities for 
lifesaving aid and care. And they are designed to intimidate and deter 
humanitarian aid workers. Last week, U.N. investigators confirmed that 
the 2016 attack on a U.N. convoy carrying humanitarian aid that killed 
14 aid workers was both purposeful and premeditated.
    Six years into this war and 3 years after the adoption of U.N. 
Security Council Resolution 2139, which demanded an increase in 
humanitarian access, the neediest Syrians still cannot access the food, 
water, and health care they need to survive. Capacity is not the issue. 
The U.N. and its implementing partners stand ready and able to deliver 
assistance to the hundreds of thousands of Syrians living in besieged 
areas. Denial of lifesaving aid is explicit in the government's war 
strategy. In December, the U.N. sought and received Syrian government 
approval to reach close to one million Syrians. Subsequent delay 
tactics and barriers put up by national and local authorities kept all 
but one convoy from reaching its destination. As a result, according to 
U.N. Humanitarian Chief Stephen O'Brien only 6,000 people--less than 1 
percent of those living under siege--received the food, fuel, and water 
needed to survive the winter and all were denied lifesaving medicines 
and surgical supplies. Preliminary reports for 2017 show only marginal 
improvements--leaving many Syrians without assistance for the better 
part of a year. Civilians in parts of Idleb province, which has seen 
its population swell with displaced Aleppians, have not received an aid 
delivery since April of last year.
    Daily life is desperate and dangerous for the Syrians trapped in 
these neglected towns and cities. The IRC has heard from ordinary 
people living in areas near Damascus that are under siege by the Syrian 
government. They tell us, ``You never saw any malnutrition before the 
siege.
    Now you see some people who look like walking skeletons. Children 
[are] passing out at school because they haven't eaten.'' The siege has 
pushed up prices for basic necessities tenfold--with a loaf of bread 
costing a full day's pay. Few jobs remain and children have left school 
to help their families survive. This is needless suffering. And 
``Peace'' achieved by means such as siege cannot, and will not, hold.
    Beyond the sieges, there is a broad picture of increasingly 
challenging choices for civilians and NGOs. There are access challenges 
at various border points. NGOs have been afforded welcome hospitality 
in neighboring states but we cannot be sure of what the future holds. 
Shifting frontlines across Syria compound these problems. Syrian forces 
are advancing toward crossings along the Jordanian border: if they 
succeed in seizing them, it would deliberately and effectively cut off 
large swathes of Southern Syria from cross-border assistance. The 
regime is likely to set its sights on Idleb--where it has forced 
opposition fighters to relocate as part of truce deals, straining the 
humanitarian infrastructure. Hundreds of thousands of civilians--many 
evacuees from Eastern Aleppo--cannot get the assistance they need and 
wait in fear of the same brutal attacks and siege tactics. Violent in-
fighting among disillusioned opposition groups in Idleb is on the rise 
and is disrupting humanitarian activities. Check points have sprung up 
around the town of Dana--a center of IRC activity--and elsewhere around 
the governorate. Clashes in January delayed much needed aid 
distribution in eastern Idleb to thousands recently displaced from 
Aleppo. Each uptick in fighting will severely hinder our ability to 
provide health care and other forms of vital aid to the 700,000 people 
displaced in Idleb.
    The conflict is now shaped by Russian and Iranian support for 
President Assad (exemplified by Moscow's Feb 28 veto of a UNSC 
resolution to impose sanctions for Damascus' use of chemical weapons), 
Turkey's focus on Kurdish forces in northern Syria, Saudi Arabia's 
attention on Yemen. There are no shortage of actors in the region and 
no shortage of interests, but none have civilian protection primary 
among them. Keeping borders open and aid flowing is not at the top of 
any actor's priority list. But humanitarian access is a right not a 
privilege under the Fourth Geneva Convention and related protocols--not 
a bargaining chip or confidence-building measure. There is experience 
from Sudan (Operation Lifeline Sudan) and Afghanistan (Operation 
Salaam) for negotiating access across conflict lines during a civil 
war. It requires political leadership, credible interlocutors, 
willingness to work with all sides, and clear pressure on all sides. 
Ensuring that humanitarian assistance is available to those whose lives 
have been shattered by this conflict is the minimum we must do.
    The new Administration has commissioned a review of options for 
countering Isis/Daesh. Two preoccupations have dominated the briefing 
so far: speeding up military action and accelerating the return of 
refugees (to Syria). We would submit that historical evidences shows 
the following. 1. The conduct of war affects the prospects for peace. 
This makes civilian protection a strategic as well as moral priority. 
2. Military haste produces humanitarian harm, and in particular 
military options without political destination risk ruin. The future of 
Raqqa, for example, is a complex political as well as military 
question. 3. Discussion of ``safe zones'' needs to be detailed not 
rhetorical. The Committee has discussed this on various occasions. The 
context inside Syria has shifted considerably since the idea was first 
explored in 2013. The shifting frontlines and rearranging constellation 
of parties on the ground, coupled with the multiple and contradictory 
policy intentions of those parties, severely complicates the options. 
At worst it would legitimize land grabs and put civilians or returning 
refugees in jeopardy.
                           syria's neighbors
    We know that Syria's civilians have borne and continue to bear 
overwhelming harm from the country's conflict. The humanitarian, 
economic, and political impact of the rapid and massive influx of five 
million refugees on Syria's nearest neighbors is not properly 
understood. Turkey hosts 2.5 million Syrian refugees, Lebanon 1.5 
million, and Jordan 1 million--placing these countries among the 
world's top refugee-hosting countries. The images of Syrian families on 
flimsy rafts in the Mediterranean pulls at our heartstrings--and 
rightfully so. But we can't let that blind us to the fact that most 
Syrian refugees remain on the dry land of Jordan, Lebanon and Turkey.
    In Lebanon, the arrival of Syrian refugees has led to a 30% 
increase in its pre-crisis population of 4 million and made it the 
highest per capita refugee host in the world. These already fragile 
countries are shouldering unreasonable and unsustainable 
responsibilities simply by virtue of their geography. Over a year ago, 
Jordan's King Abdullah warned that his country was at a ``boiling 
point'' and that ``the dam is going to burst.'' And the inadequate 
international assistance has only made it worse.
    While refugee-hosting governments and populations deserve great 
credit for their hospitality and their sacrifice, we cannot overstate 
how hard life is for Syrian refugees in these countries. In exile for 
years, with their lifesavings now depleted, most Syrian refugees live 
on the margins--unable to meet their families' basic needs, unable to 
work, and unable to send their children to school. A 2016 assessment 
found that 71% of Lebanon's registered refugees live in poverty, while 
a full 90% of Syrians in Jordan live below the poverty line. \5\ And, 
while this crisis brings to mind images of endless rows of tents, the 
majority of Syrians are not living in refugee camps. Across the region, 
refugees rent often-overcrowded apartments, squat in abandoned 
buildings, or live in ad hoc shelters and informal settlements that 
expose them to the elements and insecurity. And, despite advances in 
enrollment numbers in the 2015/16 school year, nearly 60% of Syrian 
children are still out of school--creating an entire generation lost to 
this conflict.
---------------------------------------------------------------------------
    \5\ 3RP Regional Refugee and Resilience Plan 2017 and 2018 in 
Response to the Syria Crisis.
---------------------------------------------------------------------------
    As the crisis intensifies so do the needs and the desperation of 
vulnerable families. U.N. agencies, NGOs like the IRC, and government 
service providers are unable to keep up with the demand for assistance, 
which is increasing as refugees deplete their assets. As such, refugees 
are coping by pulling children from school and putting them to work, 
offering daughters for early marriage, and increasing indebtedness to 
relieve economic pressure on themselves and their families.
    It should have come as no surprise that in the absence of adequate 
and appropriate international support, these countries are buckling 
under the strain of their refugee caseload and taking steps to contain 
political tensions within their countries. Refugees face restrictions 
on their ability to stay and work legally, and often encounter barriers 
to attending school. For instance, due to restrictions introduced in 
2015 and only partially remedied last month, over 70% of refugees in 
Lebanon lack residency permits, significantly increasing protection 
risks, while simultaneously blocking access to formal justice, civil 
documentation, and health services--not to mention livelihood and 
education opportunities.
    Second, these governments have closed many formal and informal 
border crossings to limit the inflow of additional refugees. As a 
result, hundreds of thousands of people are living in makeshift camps 
on or near borders with little or no access to humanitarian assistance. 
The most concerning example is the situation along the Berm, a desert 
no man's land between the borders of Syria and Jordan. Tens of 
thousands of Syrians have been trapped at the berm for 9 months, first 
with no and now with limited humanitarian assistance. The situation at 
the berm is a global responsibility--and it is a stunning snapshot of 
the international community's failure to adequately address the refugee 
crisis.
    Likewise, it should have come as no surprise that in 2014, after 3 
years under these increasingly pressing circumstances, refugees began 
to undertake dangerous passage to Europe in increasing and often 
staggering numbers. The top reasons refugees cite for moving on are 
first the obvious and all too elusive search for security, closely 
followed by a lack of jobs for refugee parents and education for 
refugee children. \6\ Here is the clue to how to address the 
humanitarian crisis. There is growing research showing that when 
refugees are in a safe and decent job, and have access to enabling 
services like education, they have the dignity of providing for 
themselves and their families and can become net economic contributors 
to their host economy. \7\ Like the rest of us, refugees want and 
deserve opportunities to control their own lives and provide for their 
children.
---------------------------------------------------------------------------
    \6\ http://www.unhcr.org/en-us/news/briefing/2015/9/560523f26/
seven-factors-behind-movement-syrian-refugeeseurope.html.
    \7\ Philippe Legrain. 2016. ``Refugees Work: A Humanitarian 
Investment That Yields Economic Dividends.'' Tent Foundation and Open 
Network. T. Alexander Aleneikoff. 2015. ``From Dependence to Self-
Reliance: Changing the Paradigm in Protracted Refugee Situations.'' 
Washington, DC: Migration Policy Institute. Alexander Betts et al. 
2014. ``Refugee Economies Rethinking Popular Assumptions.'' Oxford, 
U.K.: Humanitarian Innovation Project, University of Oxford. 
www.rsc.ox.ac.uk/files/publications/other/ refugee-economies-2014.pdf.
---------------------------------------------------------------------------
    More aid is part of the answer, but change in the sector is also 
important--notably to recognize the increasingly long term nature of 
displacement (once out of their own country for 5 years, refugees are 
likely to be away for 26) but also to address other changes in the 
refugee experience (for example its increasingly urban nature). We 
advocate strong commitment to evidence-based programming; clearer 
``collective outcome'' measures for what we expect to achieve for the 
health, safety, education, and incomes of displaced populations; 
greater investment in R&D for the sector; and we also need to move 
beyond short-term financing of basic needs and camp-based responses to 
financing structures that respond to current trends in displacement. In 
this regard, we have promising developments in the entry of the World 
Bank, with strong U.S. support, to provide sustained financing to 
refugee-hosting nations to improve their markets, institutions, and 
health and education systems in exchange for greater access for 
refugees to jobs and public services. The U.S. must similarly re-
evaluate its financing tools for humanitarian response and for refugee-
hosting nations. Finally, we must bring the interests of women and 
girls--those disproportionally impacted by conflict--from the margins 
to the mainstream. Seventy-five percent of Syrian refugees are women 
and children. \8\ Conflict disproportionately affects women and girls 
and they face unique and dangerous circumstances in displacement--
sexual violence, harassment, domestic violence, and economic 
disenfranchisement. Gender inequalities that precede their displacement 
are exacerbated by it, with women and girls often being the last to 
receive the benefits of aid, and the first to bear the consequences of 
displacement--through child labor or other exploitative work, early 
marriage, and other desperate and negative ``coping mechanisms''. 
Donors, host governments, and implementers need systematically to 
identify and prioritize these gender-based challenges.
---------------------------------------------------------------------------
    \8\ http://data2.unhcr.org/en/situations.
---------------------------------------------------------------------------
    NGOs like the IRC are already working toward these goals with 
strategies that include more employment and self-employment programming 
to help refugees, and especially women, generate income, as well as 
supporting host communities struggling with unemployment. With U.S. 
government support, the IRC's small business program is helping Syrian 
women in Jordan start new ventures to help keep their families afloat. 
Likewise, Syrian children need to get back to school, but the region's 
schools have been unable to absorb the hundreds of thousands of new 
students. To change this calculus, the IRC provides community-based 
education programs (flexible and tailored to the needs and 
circumstances of refugee children) to increase education opportunities 
and provide socio-emotional support for refugee children. Last year, 
with U.S. government support, the IRC piloted new non-formal early 
childhood education and retention programs in Lebanese communities, 
designed to meet the immediate needs of refugee children while the 
Lebanese government strengthens its capacity and reach to provide for 
the hundreds of thousands of Syrian children within its borders.
    The question is how to bring these efforts to scale and to do so 
sustainably. The global community came together in 2016 to achieve that 
very goal. Anchored by U.S. commitments, the global community committed 
to a 30% increase in humanitarian aid and a doubling of resettlement 
commitments globally in exchange for greater legal protections and 
access for refugees to jobs, education, and other essential services in 
their countries of first refuge. The agreement relies on a grand 
bargain between wealthy nations and the low and middle income countries 
that collectively host 88 percent \9\ of the world's 21 million 
refugees. And while we can, and should, expect other wealthy nations to 
do more, it is U.S. assistance and U.S. leadership that underpins the 
global protection regime.
---------------------------------------------------------------------------
    \9\ Forthcoming: IRC-CGD Study Group Report.
---------------------------------------------------------------------------
    The U.S. commitment to provide humanitarian, development, economic, 
and security assistance to support the protection of civilians in 
countries of first refuge is also a function of enlightened self-
interest--the forced and premature return of Syrian refugees to an 
unstable Syria, or of Afghan refugees to an unstable Afghanistan, 
foments new currents of conflict and crisis that, given U.S. interests 
and commitments in the region, draw U.S. funds and U.S. troops into 
further quagmires.
                 the vital role of american leadership
    The U.S. has major interests in the next phases of the Syrian 
crisis. (1) To push back against regional instability that threatens 
regional security as well as instability in Europe that distracts and 
diminishes U.S. allies; (2) To fight ISIS and other terrorist groups 
that capitalized on the lawlessness in Syria and the instability 
elsewhere in the region to gain territory and resources; and (3) To 
stand up for International Humanitarian Law that is one of the 
foundation stones of the post-World War II global political order.
    Amidst the noisy debate about the future of Syria, America's 
humanitarian leadership is needed in the following areas:

    <bullet> Humanitarian Law and Civilian Protection: The U.S. can use 
its role at the U.N. Security Council and beyond to increase the 
diplomatic and economic price for those who support violation of 
International Humanitarian Law. Ambassador Haley's strong condemnation 
of Russia on February 28th for vetoing the resolution that would have 
sanctioned Syria for its use of chemical weapons was important. There 
are Security Council Resolutions on the books that should afford 
protection to civilians and aid workers--like 2139 that demands 
humanitarian access and 2286 that condemns attacks on hospitals. 
Monitoring and reporting mechanisms that name and shame violating 
countries and individuals would give these resolutions teeth. In 
December 2016, the U.N. General Assembly established an investigation 
mechanism that would create trial-ready evidence for eventual 
prosecutions of those that committed war crimes and violations of IHL 
in Syria. The U.S. should support this mechanism and push others to do 
the same. A strong and vocal U.S. commitment to robustly implement its 
international commitments towards the minimization of harm to civilians 
and civilian infrastructure are rallying points for the U.S. to call on 
other states to respond with comparable measures and to name and shame 
those that do not. This matters not only for the lives of civilians 
caught in the midst of conflict, but also for the aftermath of conflict 
and for future conflicts.

    <bullet> A Commitment to Foreign Assistance: Resolving the crisis 
is a complex political undertaking that requires skilled diplomacy, 
tenacity, and a willingness to pressure all sides. However, responding 
adequately to humanitarian needs of those requiring lifesaving 
assistance is more straightforward; and something that the 
international community, led by the United States, has no excuse not to 
do. We can get assistance to the people who need it inside Syria, we 
can provide adequate support to refugees living in precarious 
situations in the surrounding countries, and we can support our allies 
who have provided safe harbor to five million people as this conflict 
has raged on; if we fund and organize to do so. The United States 
through OFDA assisted some 6.9 million Syrians in FY 2015, and this 
should be a benchmark for the future. \10\ Yet the combined U.N. appeal 
in 2016 was only 57% funded by year's end. This year we're off to a 
feeble start, with only 14% of the $9 billion appeal committed. These 
seemingly sterile statistics translate into excruciating choices made 
by U.N. agencies and aid organizations like the IRC regarding which 
needs will go unmet and whose pleas for help will go unanswered. As 
noted earlier in my testimony, it is these gaps in assistance that have 
inspired so many refugees in the region to take dangerous journeys 
onward to Europe in the hope of improving their untenable situation. As 
stated in a recent letter--which I would like to submit to the public 
record-- signed by 120 three and four star retired generals and 
admirals urging Senate leadership to support the International Affairs 
budget, ``now is not the time to retreat.'' I urge this authorizing 
committee overseeing United States foreign policy and assistance to 
defend the foreign assistance budget as Congress considers the FY 2018 
and future year requests.
---------------------------------------------------------------------------
    \10\ Office of U.S. Foreign Disaster Assistance Annual Report for 
Fiscal Year 2015.

    <bullet> The Case for Resettlement: When I was in Lebanon and Iraq 
last week, I spoke with some of the people who are impacted by 
President Trump's executive order. Over 75% of the refugees we resettle 
in the United States are women and children. Many are Iraqis who have 
served U.S. institutions, including the State Department, USAID, or 
U.S. NGOs. They are the family members of those who served with 
American troops. They are unaccompanied children, survivors of rape and 
violence, widows struggling to make a new life, and those in need of 
urgent medical care. They are those under persecution for their 
political or religious beliefs. True to a proud tradition, the U.S. 
takes the most vulnerable refugees. They are also the most vetted 
population to enter the United States. Far from the experience of 
Europe, where Syrian refugees arrived on Europe's shores by the tens of 
thousands per week, every Syrian refugee that enters the U.S. is 
selected for entry by the Department of Homeland Security, and vetted 
by U.S. national security and intelligence agencies, undergoing a 21-
step, 2-year process that includes biometric and security screenings 
and multiple forms of identify validation. The President's 4-month 
pause will have a very significant impact on refugees who have waited 
years and endured multiple screenings to enter the United States, as 
each step of the security process has a different validity period. 
There are 60,000 refugees cleared for entry to the United States who 
would have arrived to the U.S. before the end of September, who are now 
indefinitely delayed. It's a population the U.S. should proudly embrace 
in keeping with its history and values, and in keeping faith with our 
---------------------------------------------------------------------------
allies shouldering the responsibility of millions of refugees.

    We urge the committee to ensure a good faith, speedy review; to 
encourage waivers for those most vulnerable; and to support an increase 
in the number of refugees admitted upon completion of the review. Every 
administration should take its opportunity to review security 
procedures. President Bush did it after 9/11 , but even the `pause' of 
resettlement arrivals after 9/11--a moment of existential crisis for 
the nation--lasted just 2 months, after which the Bush administration 
recommitted itself to the refugee admissions program. President Obama 
also reviewed security procedures, several times, resulting in 
continuous improvements and without denying entry to the neediest 
refugee families. But once the review is complete, there is no reason 
for an arbitrary cap. The world's greatest superpower should not reject 
the world's most vulnerable. It is a symbolic show of solidarity with 
the neighboring countries, and a life-changing, lifesaving intervention 
for the individuals concerned.
    I thank you and the members of the United States Senate for the 
opportunity to provide the IRC's perspective on this defining 
humanitarian challenge. I look forward to addressing your questions.

    Senator Risch. Thank you.
    And we are now going to proceed to a round of 5-minute 
questions and answers, and I am going to reserve my time to 
interject.
    And I will recognize Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I want to thank all five of you for your testimony, but I 
want to join my two friends in paying special tribute to the 
three doctors who are here today.
    You really are inspirational to all of us. I grew up in a 
generation watching M*A*S*H on television as I saw American 
doctors perform during the Korean War and marveled how they 
performed in combat situations. They were soldiers. You are not 
soldiers, and you are performing with great personal sacrifice 
to your own safety in order to save lives in your community, 
under conditions you should not have to put up with.
    So I just really wanted to express our deep appreciation 
for your international humanitarian efforts, which really 
inspire us and I think the global community to do more.
    What we do is not at personal sacrifice to our lives. What 
you do is. So I just really wanted to thank you for being here. 
It is extremely valuable to the effort.
    And I want to assure you that I am going to do everything 
in my power to make sure that those who have committed these 
atrocities--bombed hospitals, targeting hospitals for their 
bombs, attacking humanitarian convoys in order to stop you from 
getting the medicines you need to keep children alive--that 
every one of those individuals who have committed these war 
crimes, from the Assad regime to the Russian involvement, are 
held accountable for their activities.
    And, of course, the number one thing we need to do is end 
this war. And that is not today's hearing. And I agree with the 
chairman, that is not what we are here for today.
    But the way to stop these atrocities, the way to stop this 
humanitarian crisis, is to resolve the civil war, to deal with 
the terrorists who are in the country, and to return stability 
to the people of Syria by a government that represents all of 
the communities in Syria.
    So, Mr. Miliband, first of all, thank you for your 
extraordinary leadership. We have had a chance to talk about 
these issues. I could not agree with you more about the impact 
of President Trump's executive order.
    I just quote from your testimony that those who are 
affected are family members of those who served American 
troops. They are unaccompanied children, survivors of rape and 
violence, widows struggling to make a new life, and those in 
need of urgent medical care. They are those under persecution 
for their political or religious beliefs.
    A 2-month delay is too long for these people. As you said, 
there was no need for this 4-month period, and we hope that it 
is much shorter than that.
    I just really want to talk a little bit and ask your--the 
potential impact of the executive order in the region. We have 
Turkey, we have Jordan, we have Lebanon that have literally 
millions of Syrian refugees that border Syria. If they decide, 
``Well, the present U.S. policy is that they are not taking 
refugees. Maybe we should send these refugees back to Syria,'' 
what impact could that have on an already unsustainable 
humanitarian need that exists in Syria?
    Mr. Miliband. Thank you, Senator.
    Look, the truth is that the numbers in small countries in 
the region are staggering. Lebanon has a population of 4.5 
million, and it has 1.5 million refugees. Jordan has a 
population of 7.5 million; it has 650,000 refugees, and the 
government says 600,000 unregistered refugees. Turkey, 
obviously a much bigger country, 2.7 million refugees.
    I think there are three things to have very clearly in your 
mind.
    First of all, the conditions for refugees on the ground are 
getting tougher by the week. They are running out of savings. 
They are having to reregister, which sometimes has fees 
associated with it. Their kids are not in school. And they are 
becoming more desperate.
    The second situation is the political backlash against U.S. 
allies in the region, like Jordan, is very real. The 
unemployment rate amongst Jordanians is 26 percent, never mind 
the poverty rate amongst Syrians is 78 percent. So there is a 
political management difficulty, and the short-termism of the 
humanitarian aid system compounds the difficulties for the 
Government of Jordan.
    We are working with them on an employment program to try to 
help their companies take advantage of free trade access, 
special free trade access to European markets, but that 
requires 15 percent of the employees to be refugees. We are 
trying to work with them to help square that circle.
    The third aspect, the third consequence, that I think 
relates to the first two is that many refugees, giving up the 
hope of legal resettlement in the U.S., are frankly going to 
take their lives into their own hands and try to get to Europe. 
The European refugee crisis is not over, and the push factors 
that are driving people from Syria and from the neighboring 
states to get to Europe remain very strong, indeed.
    And obviously, the greatest danger is that there is a 
domino effect from a U.S. decision. Historically, the U.S. has 
been the largest refugee resettlement country. The domino 
effect goes through the European states, who then rein back, 
and also leads to a series of actions by hosting states, like 
Jordan and Lebanon, but also, frankly, Kenya, Uganda, Ethiopia.
    That means that the global ramifications become very real, 
and instability is the result.
    Senator Cardin. Thank you.
    In regards to Mercy Corps, I want you to know I hope today 
we are going to hear ways that we can help deliver humanitarian 
aid effectively to those who are involved. Clearly, what was 
done in Turkey needs to be reversed, and I am sure that we will 
try to assist you. I will certainly be working with Senator 
Merkley and Senator Kaine and others on our committee to see 
how we can engage the Turkish Government to resolve your issue 
so that you can get that aid back to the people of Syria. I 
want you to know that we will be in communication with the 
Turkish Government.
    Senator Rubio. [Presiding.] Senator Johnson.
    Senator Johnson. Thank you, Senator Rubio.
    I also want to thank the doctors for their testimony, for 
your courage, for spending some time with me in my office 
yesterday.
    Mr. Keny-Guyer said the politics have changed, and I want 
to ask you, Dr. Abdulkhalek, with the involvement of Russia, 
you have obviously been witness of chemical attacks. You have 
been present. Can you talk about the change in tactics, the 
change in weapons the minute that Russia got involved?
    Dr. Abdulkhalek. After Russia involved in the conflict, we 
noticed a new development with weapons, like bunker-buster. The 
bunker-buster can destroy underground structures. And parachute 
bomb, we noticed they use progressive use of that bomb in the 
last 3 months of the siege. And also cluster bombs, we had 
photos by our own phones to that cluster bombs and the 
parachute bombs.
    Senator Johnson. Was there more frequent targeting of your 
hospitals when Russia became involved?
    Dr. Abdulkhalek. Yes, yes.
    Senator Johnson. So they were not attacking ISIS. They were 
attacking Aleppo.
    Dr. Abdulkhalek. They are locating the hospital. They are 
locating the hospital position, and they start targeting it 
many times until we had to leave that hospital, fearing of our 
safety and for the injured.
    Senator Johnson. So, Doctor, you also talked about two 
attacks----
    Dr. Abdulkhalek. Yes.
    Senator Johnson.--the use of chlorine. But you also said 
regular use.
    Dr. Abdulkhalek. Yes.
    Senator Johnson. Any other chemicals that you are aware of 
that have been documented that have been used, or is it 
primarily chlorine?
    Dr. Abdulkhalek. No, just chlorine attack. Just chlorine 
attack.
    Senator Johnson. You said regular use. Do you have any idea 
how many chlorine attacks there were?
    Dr. Abdulkhalek. On M3, there were just two chlorine 
attacks because M3 was not known to the government. So the last 
month, they discovered its place, so they started targeting it 
by many weapons until they used the chemical weapon chlorine 
gas.
    But they targeted the area of the M2 the hospital with the 
chlorine attack before, 6 or 7 months.
    Senator Johnson. So, Doctor, you said the world has failed 
Syria.
    Dr. Abdulkhalek. Yes.
    Senator Johnson. I could not agree more.
    Dr. Abdulkhalek. Yes.
    Senator Johnson. It is shameful.
    Mr. Keny-Guyer, you said the politics changed. Describe 
that. Describe the reality. It is great that we are going to 
say that we are going to hold people accountable, but describe 
the reality on the ground right now. What has changed?
    Mr. Keny-Guyer. Well, I do not often find myself commenting 
on the politics of a situation, but what I will say that has 
changed, we all know, as an organization that had a significant 
commitment to the city of Aleppo, we had team members who were 
in Aleppo and actually were on the last evacuation bus out, and 
we are very proud of them. They were given the opportunity to 
leave, like many of these doctors, earlier on, and chose to 
stay out of solidarity.
    But obviously, the situation in Aleppo has changed. In the 
north, you have now Idlib is very vulnerable. Many of the 
citizens of Aleppo are now there. You clearly have the 
Government of Turkey has come down into the Euphrates Shield 
area, those areas. And then, obviously, the concern over Raqqa.
    What has also happened in the southern part of the country 
I think we should all be aware of, and it is very difficult, 
and that is there have been efforts that have pacified some 
areas, but, of course, along the Jordanian border, we have seen 
an increase in conflict.
    What has remained the same and I think is critically 
important is the staggering need of innocent Syrians. And just, 
if I may, in particular comment on, you know, all lives are 
really important. But at the same time, we are particularly 
concerned about young Syrians.
    Nearly 4.8 million Syrian refugees in the region are 
children, and there are more than 8.5 million children and 
young people in Syria who are in need of immediate support, 
never mind education but just immediate support.
    Senator Johnson. I appreciate that. I have 35 seconds.
    Mr. Keny-Guyer. Yes.
    Senator Johnson. The point being is the world has failed. 
We have stood by, the world, for 6 years and watched the 
slaughter of a half million, at least, Syrians.
    And I am all for a diplomatic solution, but diplomacy 
follows facts on the ground. The facts on the ground are such 
that Russia, Iran, and Assad have conquered Aleppo. They are 
winning the war.
    Is that not correct? Is that not the politics that have 
changed? And what kind of diplomatic solution can there be when 
the facts have changed so dramatically on the ground?
    Mr. Keny-Guyer. Well, I am not sure I would go as far as 
you did, Senator, in that situation.
    You know, I have spent more than 30 years working in and 
out of the Middle East, and I am always cautious to draw any 
firm and fast conclusions that relate to the Middle East.
    But what I will say is that we are no closer to a political 
solution. I think you are right in that. And in fact, in many 
ways, the situation is more complicated than ever.
    The one thing I am sure of is that those who suffer the 
most are innocent civilians and Syrians, and especially the 
children.
    Senator Johnson. I agree.
    Senator Risch. [Presiding.] Thank you very much.
    Senator Coons.
    Senator Coons. Thank you, Senator Risch and Senator Cardin.
    Thank you, Doctors. Thank you for your incredible 
testimony. Thank you for your bravery. Thank you for what you 
continue to do to risk your lives in the service of humanity.
    It is hard to hear your testimony. It is hard to endure the 
images and the sounds and the stories of unspeakable suffering 
and unthinkable human rights violations in Syria that continue, 
week in and week out, month in and month out, over years. And 
the hundreds of thousands of innocents who have been killed in 
a way that just cries out for the world to respond should shock 
the conscience of every Senator here and everyone who listens.
    Thank you.
    Delaware just welcomed its first Syrian refugee family. In 
a small but important act, I think, a Christian church, a 
Muslim mosque, and Jewish Family Services in partnership 
welcomed a refugee family that had fled an area close to where 
you are from because of a chemical attack years ago.
    The United States has done a great deal, but nowhere near 
enough.
    My first visit to confront some of the reality of this was 
with Senator McCain and a number of other colleagues to a well-
known refugee camp in Jordan where we had memorable meetings 
with Syrians who said: We do not want sympathy. We do not want 
tears. We do not want blankets. We want action. We want 
accountability. And we want engagement.
    It is encouraging to be reminded that American humanitarian 
assistance did help 7 million Syrians last year, but it is 
heartbreaking to realize that a likely dramatic cut in our 
humanitarian assistance that may be announced tomorrow may 
significantly affect hundreds of thousands if not millions of 
Syrians and the whole region.
    And I am gravely concerned that a pause and a travel ban 
sends exactly the wrong signal about our values and our 
willingness to welcome and embrace and support exactly the sort 
of work you have done.
    So to Mr. Keny-Guyer, thank you for the bravery and the 
dedication of Mercy Corps. Along with Senator Cardin, whose 
statement I think speaks for itself and was powerful, about the 
importance of welcoming refugees to this country and about the 
importance of supporting Mercy Corps, I will only say amen and 
I look forward to trying to work with you to right this 
situation in Turkey.
    If I might, Mr. Miliband, I would just be interested in 
hearing what you would think would be the actual human 
consequences on the ground of having the United States nearly 
abandon its humanitarian assistance obligations.
    Mr. Miliband. Thank you, Senator.
    I think that U.S. assistance should be seen in three or 
four key areas. One is obviously the Food for Peace program 
that is a significant contributor to food security for Syrians. 
We are working with the U.S. Government cross-border on that 
program.
    Secondly, the U.S. has distinguished itself by the 
flexibility and speed by which the Foreign Disaster Assistance 
bureau works with NGOs like ours to reach those in grave need. 
One obvious example is inside Syria, but I just draw your 
attention to what is happening in Mosul at the moment.
    I was about 15 kilometers from Mosul at the end of last 
week. It is thanks to U.S. support that when ISIS is driven out 
of an area of Mosul, humanitarians are the first to go in 
after, including from the organizations represented here.
    We are supported by the U.S. in doing that. And that work 
is beginning to put together the elements of a functioning 
city. So in the east of Mosul, there is some reconstruction 
work that is allowing people to have basic services that they 
can go back to.
    Thirdly, U.S. foreign assistance is distinguished by its 
ability to target the most vulnerable. Often, that is women and 
girls, and it is often labeled as protection work, ``protection 
work.'' We are certainly proud to be partnering across the 
region with the U.S. in protecting women and girls from the 
unspeakable levels of abuse that are often associated with 
emergency humanitarian situations, and I think it is very 
important to flag that.
    The final thing I would mention is that it is a scandal to 
me that less than 2 percent of the global humanitarian budget 
is spent on education. That speaks to the short-termism of the 
humanitarian assistance. There is a fiction that is convenient 
for donors that these emergencies are short term. And, 
tragically, it is a fiction that is embraced often by the host 
countries for their own political reason.
    The short-termism leads to a neglect of something like 
education, but the U.S. is willing to support education. In the 
Beqaa Valley last week, I was able to see some kids who had 
been traumatized, traumatized refugees who I met 3 or 4 years 
ago in the same informal settlement, so-called. They are being 
helped by a program that is an education program that is giving 
them the chance of rebuilding their lives.
    Senator Coons. Thank you, Mr. Miliband.
    If I might just in conclusion, Doctors, 15 of the last 
remaining doctors in Aleppo, including you, sent a letter to 
President Obama detailing atrocities of the sort that we have 
heard testified to here today and asked for us to take action 
around accountability.
    I just want to commend Senator Cardin and Senator Rubio for 
reintroducing the Syrian War Crimes Accountability Act and all 
of us who are joining as cosponsors to insist on accountability 
for the unspeakable war crimes that are being committed in 
Syria against the Syrian people. Thank you for your testimony 
today.
    Senator Risch. Thank you.
    Senator Young
    Senator Young. Thank you, Chairman.
    Thank you to our doctors. Thank you for your constancy of 
purpose, for your courage, and for bringing light to an 
otherwise very dark situation in Syria.
    I agree with Mr. Miliband. We do, indeed, have a 
fundamental choice to make on this authorizing committee about 
our level of assistance we will continue to provide you and 
others.
    You are on the receiving end of international human rights 
violations, and I would like to elicit from your testimony here 
a few things that I just thought were incredibly powerful. I 
will start with something Mr. Miliband said.
    He indicated that the introduction of Russian airpower 
ushered in a new phase of this conflict, devastating and 
deliberate effects on civilians, civilian infrastructure. The 
airstrikes destroyed or otherwise rendered all hospitals in 
eastern Aleppo out of service--that despite U.N. Security 
Council Resolution 2286 condemning attacks on medical 
facilities, hospitals, and humanitarian operations.
    And then the doctors. You each spoke in a very personal way 
to the tragedies you have seen on the ground.
    Dr. Farida, you note that, ``A hospital was the most 
dangerous place in Aleppo.''
    Dr. Abdulkhalek, you highlight the repeated attempts by the 
regime and its allies to destroy the hospital where you worked 
using barrel bombs, using cluster munitions.
    Dr. Rajab, you noted that in the hospital where you served 
as director in Aleppo, the hospital was bombed out of service 
on account of 22 airstrikes. You were hit five times in 1 week.
    I cannot imagine operating under these conditions. I cannot 
imagine being in one of these hospitals. I cannot imagine 
living in an area of the world where you are constantly under 
this sort of attack.
    And who do we blame for this? Well, I mean, there is plenty 
of blame to go around, but certainly the Russian intervention 
complicated matters significantly.
    Mr. Miliband, you note that the U.N. Security Council 
adopted Resolution 2286 in May 2016. Given Russia's permanent 
seat on the Security Council and habit of vetoing resolutions 
aimed at the murderous Assad regime, no matter how egregious 
and deplorable Assad's actions have been, I was curious so I 
went back and looked at the comments of the Russian 
representative in May of last year during the passage of this 
Security Council resolution.
    Do you know what the Russian deputy permanent 
representative emphasized in his comments? It is really 
duplicitous, breathtaking, what he says. He says that it was 
unacceptable that medical personnel continued to suffer attacks 
since people's lives depended on their work. He said, 
``Protecting humanitarian personnel, including medical 
personnel, is one of the most important aspects of the whole 
issue of protecting civilians.''
    He further said members of the U.N. must do more work to 
protect medical personnel. This, again, coming from the Russian 
deputy permanent representative.
    The Russian representative also tried to cast doubt 
regarding Russia's conduct in Aleppo by emphasizing the need 
for the Security Council to be guided by reliable information. 
He said, ``It is unacceptable that unverified reports of 
attacks against hospitals taken from unreliable sources are fed 
to the media and then used for political pressure.''
    Doctors, do you have any thoughts about the Russian 
representative's comments at the U.N., his assertion that 
reports of attacks against hospitals are unreliable?
    Dr. Abdulkhalek. We noticed the attacks being more 
aggressive in the last months, after they made the siege on al-
Waer, on eastern Aleppo. At that stage, Russia was very 
involved in the process of attacking the more civilian areas.
    So Russia started to make a big effort to damage the 
hospital and to let us flee from that area to another area 
until we had to evacuate all the city of Aleppo.
    Senator Risch. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    It is truly a tragedy that we are holding a hearing today 
to mark the beginning of what was a peaceful uprising in Syria 
that has turned into the worst humanitarian crisis in recent 
memory. And we have all seen the heartbreaking images of 
children and families suffering under the barbaric attacks of 
Bashar Assad, his brutal oppression, ISIS, the network of 
actors including Vladimir Putin in Russia, Iranian terrorist 
networks, who continue to support his ongoing war crimes and 
human rights violations.
    And it is unconscionable and reprehensible that the leader 
of any country could orchestrate bombing campaigns against 
innocent civilians and institutions, hospitals, schools, aid 
convoys whose sole purpose is to provide aid and support the 
communities.
    So I have the utmost respect for all of you and all of the 
work you are doing, particularly the doctors. You truly honor 
your profession globally. And in the darkest moments of man's 
inhumanity to man, as we have seen in Syria, you have shown us 
what humanity truly is all about. And so we honor you. And the 
mere fact that you have to wear masks to protect your identity 
just speaks volumes of the challenge that you face.
    But I have to be honest with you. I am concerned that, in 
the midst of listening to all of the comments of comfort and 
solidarity and succor, that the reality is that that means 
nothing if we are going to have a 37 percent cut in our budget, 
nothing if we are going to deny refugees to come into the 
United States, nothing if we are not going to continue U.S. 
leadership in the world in this regard.
    So all these statements of solidarity will only mean 
something to me, and certainly more importantly to those who 
are fleeing Syria, when we act in ways that actually embrace 
the cause and actually shows our solidarity in meaningful 
ways--in meaningful ways.
    So this is why I have a real concern our humanitarian 
programs operate out of the State Department, mostly the Bureau 
of Population, Refugees, and Migration, and a host of programs 
through USAID. I am deeply alarmed by the administration's 
proposed budget plan to slash these agencies, which account for 
just 1 percent of the overall budget.
    I think it is not only morally reprehensible. These kinds 
of drastic cuts are squarely against the national security 
interests of the United States. It abdicates our global 
leadership. It puts our allies at greater risk.
    We want to say to other countries in the world, in Europe 
and elsewhere, when the King of Jordan comes here, thank you 
for housing the refugees from Syria. And yet we are going to 
cut the very assistance that ultimately gives that a 
possibility.
    So I hope my colleagues, when it comes time to follow up 
the words of solidarity, will do so with their votes.
    Now I want to go particularly to Mr. Miliband. I appreciate 
what your organization does, the IRC. I thought the title of 
``Senator'' was pretty significant, but ``The Right 
Honourable'' is a real heckuva title.
    But on a serious note----
    Mr. Miliband. I promise you it is not a hereditary thing in 
the U.K.
    Senator Menendez. New Jersey has welcomed 275 Syrian 
refugees in the past 12 months, and the IRC has an active 
network in New Jersey that, in my view, has enriched the State.
    But what happens when we take a different course? I know 
that you head an organization, and, of course, you had your own 
distinguished career in Great Britain, but as one of the 
greatest allies the United States has had, what would you say 
to us is the consequences of us cutting in half the number of 
refugees to come to the United States? What are the 
consequences of decimating the budget that ultimately helps? 
Why would it not be in the national interests of the United 
States and its security to do so?
    Mr. Miliband. Thank you, Senator.
    I think the simple answer to that is that America helps 
create a more stable world, and American retreat leads to more 
instability that is not just an affront to America's moral 
values but also to her interests. And both in respect to 
foreign aid and in respect to refugee resettlement, this 
country has good claim to be a world leader.
    Maybe it takes a foreigner to recognize the good things 
about a country, and one of the areas where America undoubtedly 
has claimed global leadership is in its refugee resettlement 
program. It is definitely one of the most successful refugee 
resettlement programs in the world. We are working in Germany 
and elsewhere where they want to learn the lessons of your 
refugee resettlement program.
    So I think that there is an affront to American moral 
values, but also the strategic leadership that you offer. This 
global system that we have, this global order that we have, for 
all of its faults, is upheld by American leadership. And when 
that leadership is in retreat, then both international 
humanitarian law, but also global stability, are threatened.
    Senator Risch. Thank you.
    Senator Rubio.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Rubio. Thank you all for being here, for all the 
work you do, and, in particular, for the doctors, who have 
risked so much to be a part of this.
    I want to touch on the narrative that some have put out. 
Since you are on the ground and you have been here and you have 
seen this reality up close, you can hope to enlighten us about 
this reality, and all of you, I think, can comment on it.
    The narrative that you see in some of these outlets around 
the world, which I do not know where they are getting their 
news from, is the following, and that is that: Aleppo was a 
city divided between areas controlled by rebels and areas 
controlled by the government; and that these benevolent Russian 
forces, combined with the regime, went in and liberated this 
part of the city held by rebels who, by the way, I do not think 
anyone here is a fan of many of those elements, many of which 
are radicals and who themselves committed all sorts of 
atrocities against humanity; and that these very benevolent 
forces came in and liberated this part of the city and rescued 
all of these civilians and are doing these phenomenal things. 
And you saw this in late December, images of churches opening.
    And people know where I stand on Russia. People know how I 
feel about Assad. And I see a lot of these emails telling me, 
what are you talking about? Look at these phenomenal things 
that are occurring in Aleppo with these ``liberated areas.''
    In the context of all of this, what is lost that, apart 
from the rebel forces, many of whom are criminals themselves, 
is the reality of the suffering of the people that had nothing 
to do with either side. They just happened to live in this 
area. They happened to be families and children that were going 
about their lives not involved in the internal politics of any 
Nation, including their own, and somehow were targeted, which 
is what you have now described.
    Tell us the reality. If you were someone who happened to 
live in one of these areas, and I think you have touched upon 
it, but the reality of this sort of notion of liberation, this 
notion that somehow these benevolent forces have come in now 
and liberated and are helping to reconstruct a part of the 
city, how would you characterize the way this was conducted by 
Assad, by Russia, and even by some of the rebel elements as 
they left?
    Dr. Abdulkhalek. I can tell you that, in the eastern part 
of Aleppo, now the U.N. maps decided that about a fourth of the 
buildings are destroyed completely, and the other buildings are 
damaged.
    There is no life now in eastern Aleppo after the rebels 
have gone away and after the civilians had fled to other parts 
to near Idlib. No electricity, no clean water until now.
    Not all, most of the rebel soldiers are not rebels in the 
beginning of the revolution. They were civilians like us, and 
they had to raise their weapons against the government because 
the government started killing every one uprising against the 
government.
    So they were not a soldier from the beginning of the 
revolution. And they deal with civilians like their brothers, 
most of the cases, of course. They are afraid of our lives. 
They let us evacuate before them. And they do not involve by 
targeting us or killing us.
    Senator Rubio. You may have alluded to this earlier. I 
didn't see it in the written testimony. And I see that two of 
you are concerned about being identified for your own safety.
    Dr. Abdulkhalek. Yes.
    Senator Rubio. Who are you fearful of?
    Dr. Abdulkhalek. We are fearing?
    Senator Rubio. Yes.
    Dr. Abdulkhalek. From the government. From the government 
because, if they discovered our identity, they may send someone 
to get rid of us, or they can capture our relatives in their 
area.
    Senator Rubio. These medical facilities that you worked in, 
were these medical facilities being used by anyone to conduct 
war against the government? Or were these just places----
    Dr. Abdulkhalek. No. No, it was just a place for operations 
and for helping civilians. Sometimes injured soldiers came to 
us, but we do not know which kind of rebels he belonged to, 
which one he belonged to, that group or that group. We don't 
know.
    Senator Rubio. But the bottom line is these were facilities 
that were treating people with medical conditions, and you have 
no doubt in your mind that these buildings, particularly after 
the Russian engagement, were specifically targeted.
    Dr. Abdulkhalek. Yes. Yes, because many of these hospitals 
are well-known to the government. They start targeting it one 
by one, one time and then repeated it until they destroyed it. 
Then they stopped targeting it after they destroyed it. They 
knew that it has been out of service, so they stop targeting 
it.
    Senator Risch. Thank you.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Let's just get right to the heart of this. President Trump 
wants to cut the State Department budget by 37 percent, and 
then move the money over to the Defense Department in order to 
build more bombs. So that is going to create a dynamic that is 
very dangerous inside the country.
    Right now, Russia, Turkey, and Iran are gathered in Astana 
to shore up the ceasefire, and the Geneva talks are scheduled 
to resume this week, but the United States does not appear 
prepared to have a significant role in any of the upcoming 
discussions, even though the United States has been a part of 
this war almost from the very beginning.
    So, Secretary Miliband, how long can America remain absent 
from these discussions, if we are going to be able to reinforce 
the ceasefire, protect civilians, allow medical and other 
relief to go to victims?
    Mr. Miliband. Well, thank you, Senator.
    First of all, I think it is important to recognize what the 
doctors said earlier. The notion that there is a current 
ceasefire is an abuse of the term ``ceasefire,'' because----
    Senator Markey. I agree.
    Mr. Miliband.--there are significant activities still 
taking place.
    Secondly, without a U.S. voice speaking up for the 
protection of civilians, there will be no voice doing that.
    Senator Markey. We need U.S. diplomats at the table.
    Mr. Miliband. I would argue very strongly for that.
    And I think there is something that Senator Rubio and 
Senator Cardin have started, this accountability bill that they 
have introduced, it could very powerfully be linked to a recent 
resolution in the U.N. General Assembly for bringing together 
trial-ready material to hold accountable those who commit war 
crimes.
    And while it is true that the U.N. Security Council is 
deadlocked, the U.N. General Assembly is not deadlocked. There 
is a massive majority of countries ready to support that kind 
of initiative.
    Senator Markey. Mr. Keny-Guyer, child soldiers, it is not 
just ISIS. It is also the Free Syrian Army that are engaged in 
conscripting children into their armies.
    What would you recommend the position of the United States 
should be, in terms of what we use our influence to try to 
ensure is the policy in Syria?
    Mr. Keny-Guyer. Thank you, Senator.
    Obviously, with respect to child soldiers anywhere--
anywhere--whether that is in Africa, whether that is in the 
Middle East or other parts of the world, we have to have a firm 
policy that is unacceptable, and those who engage should be 
held accountable.
    And I think Senator Rubio described it very well in his 
description, is Syria has devolved into a situation now where 
any fair-minded person looking at it is going to go it is hard 
to sort out who are the good guys and who are the bad guys. It 
is not crystal clear who the good guys are.
    But what is crystal clear is that stability in Syria, 
stability in the Middle East, is critically important for every 
interest that this country has in that part of the world, and 
it is critically important to our national security.
    And as the doctors reminded us, the only solution--there is 
not a humanitarian solution. Frankly, there is not a military 
solution. We know the only solution is one that is diplomatic, 
going forward.
    And I would certainly urge and believe that we will end up 
with a lot better solution, one that is more in the U.S. 
interests, to the degree that we are engaged and at the table.
    Senator Markey. So you are, once again, just reinforcing 
this point that whether it be the ceasefire or it be the 
conscription of child soldiers, all the way down the line, the 
longer the war goes on, the more each side begins to engage in 
activities that are atrocities by any definition.
    And so that is why the United States cannot abandon the 
diplomatic pathway. It is only solution, ultimately, to this 
problem.
    Can you talk a little bit about the programs that we can 
put in place in the country to protect women and girls, if you 
have any suggestion to us that the United States Government 
should be trying to advance?
    Mr. Keny-Guyer. Well, the biggest protector of women and 
girls are the community norms and structures that already exist 
inside Syria. And to the degree that we can support, and all of 
us work with this--IRC, Mercy Corps. There are credible, 
civilian, local councils inside Syria that are not involved in 
the politics, are not involved in the fighting, and believe one 
day they are going to have the opportunity to build a better 
Syria.
    It is in that context where you support organizations like 
ourselves who work through local Syrian groups. That is the 
best way to ensure the protection of girls and women.
    Senator Markey. Do we need to be talking to the Russians to 
get this resolved, in your opinion?
    Mr. Keny-Guyer. I think one needs to talk to anyone who is 
----
    Senator Markey. Including the Russians.
    Mr. Keny-Guyer. Yes, sir.
    Senator Markey. Mr. Miliband, do we have to be talking to 
the Russians to get this resolved, in your opinion?
    Mr. Miliband. Definitely. But progress depends on what you 
say to them.
    Senator Markey. I appreciate that, but you have to have the 
discussions with them. If you do not have the discussion, it is 
just repetition syndrome. We are just going to see this go year 
after year. Do you agree with that?
    Mr. Miliband. I do. I think the other thing to say is that 
Russia and Iran are not natural allies, and we should not take 
it as a matter of definite course that they are cleaved 
together in an alliance that is unbreakable. And there are some 
signs that Russia and Iran are sending different messages into 
the system. And I think it is in your interests, in American 
interests, that they do not cleave together.
    Senator Markey. Thank you. I agree with you.
    Senator Rubio. [Presiding.] Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    You know, it seems that absent a diplomatic, political 
solution, we are not going to see an end. I think that is 
agreed here. But we have been pursuing that for 6 years now 
without success.
    The humanitarian situation has been well-documented, but I 
would like some indication of where that goes from here, how 
much worse it can get or what we are likely to see if no 
political solution is reached in the coming months.
    Mr. Miliband.
    Mr. Miliband. Thank you, Senator. I would say two things 
about that.
    First of all, I think you are going to see more and more 
people leaving Syria. I mean, you have 7 million internally 
displaced already in addition to 5 million refugees. We have 
not seen the end of the refugee flow. And, frankly, the 
bombardments that are still taking place will drive further 
people out.
    The second point is to pick up something Senator Markey was 
saying. I remarked to him that Iran and Russia are not natural 
allies. And neither are Turkey and Russia natural allies. 
Remember, Turkey is a member of NATO and a significant part of 
the future of the conflict depends on the relations between 
Turkey, Russia, the Syrians, and the U.S., in respect to the 
Raqqa situation.
    And so if it is correct, as the U.N. says, that 400,000 
people could be displaced by the attempt to retake Raqqa, then 
the way in which the U.S. engages is absolutely critical to 
that.
    Senator Flake. Any other thoughts on that? Will it be 
manifested in just increased refugees outside of the country 
then? Is that the agreement?
    Mr. Keny-Guyer. No, as I said earlier, Senator, I worry 
greatly about a whole generation, now going on two generations, 
of young people who have not been educated, who have not had a 
chance to contribute positively to their societies.
    And particularly in that part of the world where there are 
competing ideologies, some of them as sinister as they come and 
should not be allowed to continue to exist in a civilized 
world, yet those becomes pathways, increasingly, for young 
people out of that mix.
    And so the longer this goes on, the more the instability 
continues, I think the more we need to worry about those kinds 
of issues. And that is why it is so important to bring this to 
a close as soon as we can.
    Senator Flake. The U.S. and the EU and other organizations 
and countries have been certainly helpful with the humanitarian 
effort.
    Can anybody give any idea what Russia has done with regard 
to humanitarian efforts?
    Mr. Miliband. That is not their focus.
    Senator Flake. I know that is not, but is there even an 
attempt to make it look like they are concerned about the 
humanitarian situation?
    Mr. Miliband. I did actually raise this with the now-famous 
Russian Ambassador some time ago, and the Russians talk about 
their support for the U.N. system, and that is the way in which 
they would see their humanitarian aid going forward.
    Senator Flake. But nothing independently, unilaterally?
    Mr. Miliband. No.
    Senator Flake. Okay. All right. Thank you.
    Thank you, Mr. Chairman.
    Senator Rubio. Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chairman.
    Today, here we are 6 years from March 15, 2011, the ``Day 
of Rage,'' where mass popular demonstrations occurred against 
the Syrian President, triggered by the Syrian secret police 
torturing young boys who had spray-painted anti-Assad graffiti, 
6 years in which we now see a half million people who are dead 
and a quarter of the 21 million people in the country have 
fled, destabilizing neighboring countries, certainly having a 
big impact on Europe.
    U.N. Secretary General Antonio Guterres, when he was High 
Commissioner of Refugees, characterized the war in Syria as 
``the great tragedy of this century, a disgraceful humanitarian 
calamity with suffering and displacement unparalleled in recent 
history.''
    Our witnesses today, the doctors and IRC and Mercy Corps, 
have been there in these horrific circumstances, trying to 
assist with medical care and nutrition and support, and I 
commend them all for this tremendous effort individually and 
with their organizations.
    I am disappointed that Turkey has revoked the registration 
of Mercy Corps to provide assistance through Turkey to over 
300,000 Syrians. I do appreciate the Government of Turkey has 
been a leader in the refugee response and a close partner to 
Mercy Corps over many years before.
    So, Mr. Keny-Guyer, I would like to ask, what are the 
immediate steps that would be helpful that you might like to 
see taken by the Government of Turkey?
    Mr. Keny-Guyer. Thank you, Senator. And thank you for your 
efforts as well in this matter.
    You know, when the revocation came, we were, frankly, 
stunned and deeply saddened. And I say ``saddened'' because of 
the hundreds of thousands of Syrians that we help each month 
inside the country and have been such a critical lifeline of 
support and hope.
    And then, secondly, particularly for our Syrian team 
members who have put their lives on the line through all of 
these years in the toughest times and darkest days to make a 
difference.
    And we have always enjoyed a close working relationship 
with Turkey.
    So our approach right now is we presume, and we have not 
been given an official reason, but we presume that there is 
some technicality and that our sole aim is to enter into 
discussions and negotiations that will allow us to restore our 
ability to operate.
    The governors in Turkey have been extremely supportive of 
our work. The local authorities have been supportive. The 
Turkish Red Crescent has been supportive.
    And so we thank the Senators here for all your support. And 
at this stage, we are working night and day to ensure that we 
can get back to work there as soon as possible.
    Senator Merkley. And has our State Department been helpful 
in facilitating a conversation?
    Mr. Keny-Guyer. Our State Department and our Ambassador 
have been extremely, extremely helpful. I want to commend them 
for their efforts, particularly in these difficult times.
    Senator Merkley. So at this moment, with the supply chain 
of significant assistance to over 300,000 inside Syria, with 
that disrupted, can you paint for us a picture of the 
challenges being faced by those who would have otherwise been 
assisted by the flour and water and support that you all 
provide?
    Mr. Keny-Guyer. Well, a large, substantial portion of our 
aid going cross-border was wheat flour that went to bakeries. 
We were trying to use markets to keep the price of bread 
affordable for ordinary, normal citizens there. And through 
those bakeries, really vulnerable people got vouchers so they 
could pay a very little amount for their bread. So that was a 
critical lifeline.
    In addition to that, there are a number of internally 
displaced camps for Syrians along the Turkey-Syrian border. We 
have been providing clean and fresh water for those camps to 
more than 100,000 people on a weekly basis. So immediately, 
those abilities have been cut off.
    In addition--because, again, we see the resilience of 
Syrians. We see their desire to help themselves, even at this 
time. We have been supporting inside Syria the recovery of 
agricultural land so that Syrians could get back to growing 
their own food and not be as dependent on the outside.
    Again, wherever you can restore markets, it is so important 
for people. It is so important for any chance of recovery. All 
of those programs are at risk.
    Senator Merkley. Thank you very much.
    Thank you.
    Senator Rubio. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    I want to thank some colleagues. Senators Murphy, Rubio, 
and McCain joined with me today, introducing a resolution 
commemorating the challenges of the last 6 years and 
encouraging all of us, the global community, to do more.
    I want to thank the organizations here, IRC, Mercy Corps, 
and SAMS. SAMS does wonderful work. You have been praised as 
individuals, but I also know this organization. And I met with 
SAMS physicians in the United States and also in Gaziantep. It 
is really, really a strong organization.
    Thank you for what you are doing.
    A comment, and then maybe a question or two.
    In November 2015, right before Thanksgiving, the House of 
Representatives here passed a bill called the security America 
against foreign enemies act. That was the bill that blocked 
Syrian refugees from coming into the United States.
    This is a body that will not have a vote to declare ISIS an 
enemy, but it will label Syrian refugees an enemy.
    I was very proud of my Senate colleagues. When that bill 
came over here, we would not have anything to do with it, 
because refugees are not the enemies of the United States.
    And I am extremely discouraged that, after the Senate had 
the good sense not to do that, this administration came in and 
perpetrated the same thing. It issued the immigration orders in 
January with the title, an executive order protecting the 
nation from foreign terrorism. That was the title.
    The revised immigration orders are not much better because 
they hit refugees in three ways: one, by a temporary suspension 
of the refugee program; two, by a temporary suspension of 
Syrians being able to come to the United States; and, three, by 
a dramatic reduction of the number of refugees the United 
States will take.
    Refugees are not terrorists. Refugees are not enemies. When 
the administration issued the initial executive order, I was in 
Roanoke, Virginia, and Blacksburg, far from an international 
airport, far from worrying about this issue, doing events about 
the Affordable Care Act there. And I had somebody come up to me 
at a reception and said, hey, my family helped a Syrian refugee 
family resettle in Roanoke, working with Catholic Charities a 
year ago. Let me tell you how great they are doing. The husband 
is working on a construction crew, and everybody loves him. And 
all the construction workers of different political persuasions 
banded together to buy soccer shoes for all the kids at 
Christmas. And you can never say anything bad about this guy in 
front of any of those construction workers. This family has 
been a credit to our community.
    But what they were asking me was this, here is what they 
said, but we have a second Syrian family arriving at the 
Roanoke airport in 4 days. They have been in a refugee camp in 
Jordan for 4 years getting vetted and finally approved to come 
to the United States. What is going to happen to them? And they 
have not been able to come to the United States.
    The notion that this administration is perpetrating, that 
refugees are enemies, is just absolutely contrary to the values 
of this country. I second comments made that the slashing of 
the foreign aid budget would be a horrible thing. But even if 
the foreign aid budget does not get slashed by a penny, 
perpetrating a stereotype about refugees or Syrians, that they 
are our enemies, is deeply troubling to me.
    A question: The U.N. Security Council in February of 2014 
passed a Resolution 2139 calling for cross-border delivery of 
aid, safety for people receiving aid, and safety of medical 
facilities. I think the enforcement and implementation of that 
has been a disaster, based on the testimony that has been 
given. What does it say about the U.N., what does it say about 
the Security Council, what does it say about the nations that 
are members of the Security Council, that a resolution that 
called so clearly for there to be delivery of aid and 
protection of medical facilities has been so poorly enforced in 
the 3 years since it passed?
    Mr. Miliband. If I might, Mr. Chairman, I think that there 
are two very important things to say about that.
    First of all, you made a distinction between the U.N. and 
the U.N. Security Council, and there is often a confusion 
between the agencies of the U.N., the officials of the U.N., 
and the countries that stand it up. I know from my own 
experience that a divided Security Council means a weak U.N. 
And the truth about these resolutions is that a divided 
Security Council weaken the hand of all those trying to 
implement the resolutions.
    The second point, I do not know which is worse, the fact 
that the 2014 resolution has not been abided by or that a 
resolution condemning the use of chemical weapons on the 28th 
of February this year was vetoed by the Russians. And I think 
it is important to see the two of them together because it 
points to the fundamental challenge that now exists, because we 
have never been in this situation before, where a permanent 
member of the Security Council was unwilling to uphold 
fundamental aspects of international humanitarian law.
    Senator Kaine. Yes?
    Mr. Keny-Guyer. Senator, if I may just add quickly, I think 
you point out the U.N., even the best of the operational 
agencies often reflects the politics of the Security Council, 
and discourages them sometimes from taking the kind of bold, 
clear action that they should be taking.
    We have encouraged them, along with IRC and others, we 
encouraged them from the day of that resolution to now test it 
and push, push, push for cross-border humanitarian assistance. 
Unfortunately, that did not happen.
    I think that just reinforces why and how important it is, 
the importance of organizations like Mercy Corps, IRC, and 
SAMS, in order to reach people in need in some of the toughest 
places in the world, but particularly those environments that 
are plagued by these kinds of politics.
    We are often the only last mile and the only lifeline.
    Senator Kaine. Mr. Chair, I have one more question, but if 
you would like to each ask questions before I do, I can----
    Senator Rubio. No. Do you have any further questions?
    Senator Cardin. No, I just will have closing comments.
    Senator Rubio. Okay.
    Senator Kaine. If I might, the U.S. is currently engaged in 
major military action with other nations against Raqqa, and 
there has been a prediction that that might lead to another 
400,000 refugees out of the area.
    I do not want to ask you about the military side of it, but 
what would be your prediction? If this military operation is 
successful, walk down the road with us a bit and tell us what 
we, A, might see in terms of the humanitarian challenge; and, 
B, what that might mean in terms of opening up space for either 
a greater or lesser likelihood of a political resolution in 
Geneva and some of the talks about finding a ceasefire and 
then, hopefully, a next chapter in Syria.
    Mr. Keny-Guyer. Well, very quickly, I do not know any of us 
who do not hope deeply that groups like Daesh, ISIS, have no 
place to operate anywhere. They are not in the interest of 
anyone. They are certainly not in the interest of innocent 
Syrians.
    And so I think one would welcome through that kind of 
action that Raqqa could come back as a normal city.
    In terms of the humanitarian impact, it really is going to 
depend on, obviously, how the military action unfolds. There 
were great predictions that Mosul would produce a million-
person humanitarian disaster. It still might. It has not, up to 
now.
    I think we all have appreciated some of the great care that 
has been taken, the real concern for civilians. Again, they are 
suffering. But some of the harshest predictions did not come 
true. I think we all hope that for Raqqa as well.
    And so if there is effective coordination on the ground, if 
there is upholding humanitarian principles and rights, if there 
is respect for the actors like ourselves, I think, actually, we 
could move in very quickly, restore essential services and meet 
critical humanitarian needs, if there is also the funding 
available to do that.
    Mr. Miliband. First of all, I think it is very important to 
emphasize the degree of trauma that it means to live under 
ISIS/Daesh for 2 or 3 years. The people I met last week coming 
out of Mosul have lost sons, brothers, to execution. They have 
relatives who are in hiding, literally not coming out of their 
own house for 2 years because they previously worked for the 
Iraqi Government. There will be a massive degree of trauma.
    Secondly, I do not see Raqqa being a quick win at all. You 
are going to be debating this in a year's time, I would guess. 
And I think it is very important to recognize that.
    Thirdly, we know from history, and we can see in Iran 
today, the position of civilians in the definition of military 
operations is absolutely key to the way in which the peace is 
then built after the war has been won. And the way in which you 
win the war defines whether or not you can build the peace.
    And civilian casualty rates in Mosul are currently running 
at 47 percent, and that is obviously a dangerous down payment 
on any attempt to rebuild the city afterward. That is one 
reason that the humanitarian, the political, and the military 
all come together.
    A final point on the political options, the great danger is 
that the options get worse rather than better, and the options 
become increasingly extreme opposition groups that Chairman 
Rubio has referred to versus an Assad regime that in its pomp 
and its ``claimed victory'' asserts itself in an even more 
bloody way, and that is a recipe for continued instability 
inside Syria.
    Senator Rubio. Senator Cardin.
    Senator Cardin. Mr. Chairman, I just really wanted to thank 
the panel. Mr. Miliband, I think, will make his 1 o'clock 
deadline.
    I would point out that, in Mosul, we have a government that 
we can at least work with and communicate with, whereas, in 
Raqqa, we do not, so there is, I think, a much greater risk in 
Raqqa.
    I would also point out that, clearly, we need to deal with 
the responsibility and accountability to the Assad regime, to 
Russia's involvement in Syria, to terrorist groups that are 
operating in Syria, all that is continuing to add to the 
humanitarian crisis.
    So we need to engage the international community more 
effectively in dealing with this. But it starts with taking 
care with business at home, what we do here in the United 
States, and many of my colleagues have talked about this.
    But our refugee program is not only directly important for 
refugees, but it is a signal to the international community as 
to America's leadership. And it very much will affect policies 
in other countries. You mentioned what Europe decides to do, 
what the neighboring countries of Syria decide to do.
    We also, in Congress, have our responsibility. We are the 
ones who pass the budget. President Trump can submit a budget, 
but we are the ones who pass the budgets. And we have a 
responsibility. And Republicans and Democrats have been 
speaking out about the importance of our foreign assistance 
budget, and I hope we will do the right thing there.
    We also need to deal with atrocity prevention. We mentioned 
many bills today. We also have an atrocity prevention bill that 
is bipartisan that we are working to try to get done. Senator 
Rubio has been one of the key leaders on that. War crimes 
accountability, we had that also. Senator Rubio has been 
instrumental.
    But it is also U.S. global leadership. Where is America? 
And we do that by our policies but also by our priorities that 
we set globally.
    So we know that displaced families are at risk. We know 
that it is difficult to get humanitarian aid to those who are 
at risk. And we all need to do a better job.
    I thought today's hearing--I want to thank again the 
doctors, particularly, for being here. But I want to thank all 
of our witnesses for providing, I think, very helpful 
information as to what we need to do to help not only Syrian 
humanitarian needs but their whole region, which is involved.
    Senator Rubio. Well, I thank the ranking member and all the 
members who came today, and everyone who is on this panel, 
including and especially the doctors here who have taken great 
personal risk not just in their conduct on the ground but even 
being here today.
    There was a statement made earlier, and I understand 
exactly what you meant to say. I believe it was Mr. Keny-Guyer 
who said we do not know who the good guys are, and I understand 
exactly what you mean.
    But I know who three of them are. I know who five of them 
are, but three in particular who are with us today and the 
three doctors, in particular, the doctors who are here, and we 
thank them for the work that they have done.
    The other part that is striking today, and I say this to my 
colleagues who remain, and there is a lesson to be learned, we 
did not have to be here today. This did not have to happen.
    This began, as has been pointed out repeatedly, by Syrians 
themselves standing up against the government. And when we talk 
about some of these horrifying actors on the ground, it is 
amazing how many of them are not Syrians, how this vacuum in 
Syria became a magnet for foreign fighters from all over the 
region to come in and use it as a playground for their broader 
aims and goals, how the Assad regime has invited non-Syrians to 
come in and slaughter their fellow countrymen.
    And it was stunning in this committee about 2 months ago we 
had a hearing, and I asked a very direct question of the then-
nominee for Secretary of State about whether the Russians have 
been involved in the commission of war crimes, and he said he 
was not aware. It has been 2 months, so I think hopefully by 
now he has been made aware of the reality that targeting 
medical facilities, no matter what is happening in that area, 
is a war crime, and that that targeting would not have been 
possible had it not been for the assistance and potentially the 
direct attacks conducted by the Putin regime.
    Moving forward, I think that this is an ongoing crisis for 
the world. And to those who have argued in the past that 
America has a lot of problems, and we should be focused on our 
problems, and let other countries take care of their own 
problems, it does not work that way. That is not how the world 
works, especially now, as interconnected as it is.
    We are having debates in this country about refugee 
programs and the like because we have refugees. If we did not 
have refugees, if we did not have people who needed to leave, 
there would not be a refugee issue for us to be debating in 
this country.
    And the other is, this is what the absence of American 
leadership looks like. And sadly, I believe it is a bipartisan 
absence, in many cases, that has led to this situation.
    So sometimes in foreign policy, it is not enough to do the 
right thing. You have to do the right thing at the right time, 
because if you do not, those options are forestalled and you 
reach the situation that we face here today.
    Our obligation is to take this message back to our 
colleagues and ensure that these ideas are reflected not just 
in what we do now when it comes to Syria but the role that 
America decides to play in the world in the years to come.
    And having this hearing here today, and hearing the 
testimony of all of you, but in particular those who risk their 
lives before they came and risk their lives now upon their 
return, I hope will serve as an inspiration to every member of 
this committee, every Member of the Senate, and those of us who 
care deeply about the affairs of the world, about the way 
forward in the years to come.
    So I thank you for hosting this hearing, and I want to 
thank all of you for being here.
    The record for this hearing is going to remain open until 
the close of business on Friday, and that includes for members. 
That is time for members to submit additional questions for the 
record.
    We ask the witnesses, if possible, obviously, given the 
circumstances, to respond promptly, because they are going to 
be made part of the record, which we can refer back to as we 
debate some interesting topics in the weeks and months to come. 
So with that, I want to thank again every member of the 
committee who came, and this hearing is adjourned.
    [Whereupon, at 12:50 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  The Committee Received No Response From Mr. Neal Keny-Guyer for the 
          Following Questions Submitted by Senator Todd Young

    Question. Mr. Miliband and Mr. Keny-Guyer, as the heads of your 
respective organizations, you both have worked with the Department of 
State and USAID. This is the authorizing committee and the committee of 
oversight for State and USAID. Based on your interactions with State 
and USAID, what do you believe are the areas in most need of oversight 
attention and reform?

    [No Response Received]

    Question. Mr. Miliband and Mr. Keny-Guyer: To what degree do your 
respective organizations depend on private sources of funding? Please 
provide statistics.

    [No Response Received]

    Question. Mr. Keny-Guyer, you have noted that in the last few weeks 
the Turkish government revoked Mercy Corps' registration to operate in 
Turkey. You write in your prepared testimony that this decision 
disrupts ``lifesaving assistance to 360,000 Syrians every month inside 
Syria and effectively ends [your] support to 100,000 Syrian refugees 
and Turkish children, women and men in Turkey.'' Do you believe that 
many of the Syrians who Mercy Corps will no longer be able to help 
inside Syria will likely flee to Turkey--increasing the burden on the 
Turkish government? From that perspective, wouldn't it be in Ankara's 
self-interest to permit Mercy Corps to resume its lifesaving work?

    [No Response Received]
                               __________

 Responses of The Right Hon. David Miliband to Questions Submitted by 
                           Senator Todd Young

    Question. Mr. Miliband and Mr. Keny-Guyer, as the heads of your 
respective organizations, you both have worked with the Department of 
State and USAID. This is the authorizing committee and the committee of 
oversight for State and USAID. Based on your interactions with State 
and USAID, what do you believe are the areas in most need of oversight 
attention and reform?

    Answer. The Department of State and USAID have long played a 
critical role in alleviating poverty and responding to disasters, 
conflicts, and other humanitarian crises around the world; their 
leadership, partnership, and funding enable us to do our work more 
effectively as non-governmental organizations.
    Of course, as the nature of crises have changed over the years and 
our sector has learned more about best practices, these agencies have 
needed to modernize their mechanisms of assistance. As noted in the 
attached brief, USAID and the Department of State have--often in close 
collaboration with Congress and this committee--taken significant steps 
to improve their effectiveness. This includes undertaking an internal 
reform strategy (USAID Forward) that increased funding and requirements 
for evaluation and evidence generation, local engagement, and public-
private partnerships; reporting and publishing foreign aid financing 
data to ForeignAssistance.gov and the International Accountability and 
Transparency Initiative (IATI) platform; reforming food aid to increase 
local and regional procurement; and most recently supporting the 
passage of the bipartisan Foreign Aid Transparency and Accountability 
Act through this committee and the House of Representatives.
    Nonetheless, the crisis in the Syria region--where refugees are 
living in displaced situations for many years, outside of camps, with 
pressing needs for education and jobs and not just food and shelter--
has highlighted a problem common to not just USAID and the Department 
of State, but to the international aid system more broadly. Namely, we 
have relied too long on an outdated and false construct that 
humanitarian and development work belongs in separate, often 
uncoordinated sectors. Funding can be siloed between humanitarian 
responses and development work, when in reality it is not a linear 
process with humanitarian aid and economic development intricately 
linked. Refugee crises place pressure on host countries and 
communities, which can generate economic pressure on community and 
government systems; possibly leading to the erosion of development 
gains. Lack of economic development and opportunity often times 
provides fertile ground for new humanitarian crises, whether by 
diminishing the resilience of communities facing shocks like El Nino 
conditions or in exacerbating tension and conflict between different 
demographic groups.
    There have been steps forward to better coordinate the United 
States' humanitarian and development efforts so that all resources and 
skill sets are brought to bear in reaching the goals of assisting 
people and making sure that humanitarian crises do not result in the 
loss of hard won development progress. These include advancing 
``resilience'' efforts and better combined planning in complex refugee 
emergency environments like the Syria region. However, further 
opportunities should be explored to link humanitarian and development 
planning where appropriate. While emergency response is critical it is 
insufficient for creating long-term safety and stability; therefore 
financing structures that allow for a longer-term approach to assisting 
those displaced for years are required.
    There are several opportunities that would advance U.S. 
humanitarian agencies toward this continuum and ensure even greater 
combined impact:

    <bullet> First, humanitarian and development agencies should work 
together to orient planning around collective outcome targets. Agencies 
could define specific targets that correspond to medium- and long-term 
outcomes beyond emergency assistance--measuring not just the number of 
food packets delivered, but proportion of the population that is now 
not hungry, or not just the number of children enrolled in school, but 
their learning and skills--to drive greater accountability and focus on 
the right solutions. These targets should have corresponding common 
indicators, so results can be compared across projects and agencies. As 
an example, the IRC has implemented a set of core outcome indicators 
that is allowing us to standardize our planning and reporting and 
evaluate our impact across the many different contexts in which we 
work.\1\ Adopting collective outcomes for crisis-affected populations 
as measures of success would encourage the Department of State and 
USAID to work jointly and more comprehensively across their 
humanitarian and development arms to accomplish these goals.

    <bullet> Second, U.S. humanitarian agencies should provide more 
multi-year funding. Long-term displacement is now the rule, not the 
exception, with most refugees displaced for a decade or more. As a 
result, programs should be designed not on 9 month or 1-year time 
frames, but over longer periods (2 years or more) to allow agencies and 
their grantees to provide more meaningful assistance to displaced 
people and the communities hosting them, and have sufficient time to 
measure and report on the outcome targets defined above. It would also 
reduce the high administrative costs of having to renew 12-month grants 
year after year.

    <bullet> Third, agencies could more rigorously incorporate evidence 
on impact and cost-efficiency and effectiveness into program planning 
and evaluation. As explained in more detail in question 3, the 
Department of State and USAID have strong policies on evidence and 
evaluation. Including requirements for all grantees to link 
interventions to the existing evidence base, and investing even more in 
generating new research to fill evidence gaps for programs in crisis 
settings would solidify their role at the forefront of outcome and 
evidence-driven humanitarian practice globally.

    Question. Mr. Miliband and Mr. Keny-Guyer: To what degree do your 
respective organizations depend on private sources of funding? Please 
provide statistics.

    Answer. For FY2016, the IRC received $128 million from private 
contributions, representing 17% of our total income.

    Question. Mr. Miliband, in your prepared testimony, you ``advocate 
for a strong commitment to evidence-based programming and clearer 
`collective outcome' measures for what we expect to achieve for the 
health, safety, education, and incomes of displaced populations.'' You 
also call for ``greater investment in R & D for the sector.'' How does 
the International Rescue Committee employ evidence-based programming? 
What best practices or lessons learned have you identified that can 
inform our oversight efforts and benefit other groups? In your 
experience, to what degree do the Department of State's Bureau of 
Population, Refugees, and Migration (PRM) and USAID's Office of Foreign 
Disaster Assistance demand evidence-based programming with clear 
outcome measures?

    Answer.
                          evidence at the irc
    By generating, sharing, and using data and evidence, the IRC aims 
to improve the effectiveness and efficiency of programs and policies in 
humanitarian settings, and to significantly and sustainably improve the 
lives of people affected by crisis.
    The IRC maintains a dedicated professional Research, Evaluation and 
Learning team whose job it is to ensure that we rely on evidence to 
design and operate our programs. The team develops cutting-edge tools 
and guidelines that enhance IRC's ability to monitor the quality of 
work and track performance. They build our capacity for sound data 
collection and methods of analysis, and for demonstrating with 
precision the impact of our practitioners across the globe and the 
United States.
    One of these tools--the Outcomes and Evidence Framework (OEF)--was 
rolled out across all IRC programs last year to be integrated into 
program design and reporting. The OEF is a set of tools, including 
theories of change, outcome indicators, and evidence maps, for IRC 
staff to use to ensure our programs are outcomes based and driven by 
the best available evidence that proves what interventions do and do 
not work to achieve those outcomes. Beyond this commitment to improving 
how we operate, the IRC is also sharing this approach with other 
practitioners, donors, and any interested parties, including this 
committee, through an online interactive Outcomes and Evidence 
Framework found at www.rescue.org/oef.
    Although we have worked to compile the best evidence available in 
this framework, there are still substantial evidence gaps, and the IRC 
is working to fill them--of ten in partnership with the State 
Department and USAID. We have been at the frontier of conducting 
rigorous research in humanitarian settings, and are one of few response 
organizations conducting impact evaluations in conflict and post-
conflict contexts. To date, we have completed or are in the process of 
conducting 84 research studies, including 38 impact evaluations across 
28 conflict-affected countries. We are currently building the evidence 
base within strategic priority areas, such as preventing family 
violence or cash relief in emergencies, across various crisis-affected 
contexts and sharing our learning. With all evidence-based approaches, 
IRC maintains that there must be a balance of investing in and scaling 
up what we already know to be effective, and experimenting with new 
approaches that can yield even better solutions.
                        evidence at prm and ofda
    In many ways, USAID and State have been leaders in establishing and 
standardizing evaluation and evidence-based policy and practice. The 
2010 USAID Forward strategy focused heavily on building a capacity and 
culture of evidence at the agency, with demonstrated results: between 
2010 and 2015, USAID trained 1,600 staff in evaluation methods, 
completed more than 1,000 evaluations on its programs, and an 
independent study showed that as of 2016, 59 percent of approved 
country strategies referenced at least one of these evaluations.\2\ 
Specifically within the humanitarian space, both OFDA and PRM have both 
embraced evidence-based programming and sponsored a number of evidence-
generating research initiatives. IRC has partnered with OFDA and PRM on 
fifteen such initiatives over the last 10 years, including developing a 
new evidence-driven protocol for treating acute malnutrition,\3\ 
adapting screening methods for gender-based violence,\4\ strengthening 
community-based surveillance methods to combat Ebola,\5\ and supporting 
safe and sustained livelihoods for female refugees and returnees.\6\ 
PRM and OFDA have worked with the IRC to support evaluations and 
feasibility studies to make sure the interventions they are funding 
work. At the same time, they are themselves experts in best practices 
for achieving meaningful outcomes for vulnerable populations in the 
complex, conflict-affected contexts where we work.
    There are certainly remaining challenges in ensuring the range of 
programs chosen and the metrics used in evaluation are suited for the 
changing reality of crisis situations. The humanitarian sector, by 
nature, has been about lifesaving emergency response--meeting basic 
needs of food, water, shelter, medicine, etc.--and has done it well. 
However, given the evolving trends of displacement and crisis, where 
refugees are displaced for an average of 10 years, there is a need to 
shift from providing inputs for their survival to providing medium and 
long-term services that help them thrive. Humanitarian and development 
agencies should work together to define specific targets that 
correspond to these medium- and long-term outcomes--measuring not just 
the number of food packets delivered, but proportion of the population 
that is now not hungry, or not just the number of children enrolled in 
school, but their learning and skills--to drive greater accountability 
and focus on the right solutions. Adopting collective outcomes for 
crisis-affected populations as measures of success would encourage 
State and USAID to work more jointly and comprehensively across their 
humanitarian and development arms to accomplish these goals.
    Both PRM and OFDA have shown leadership in moving towards these 
kinds of programs and outcome measurements. They have been supportive 
and rigorous but also flexible partners in responding quickly to 
emergencies while at the same time requiring the highest standards for 
outcomes and for evidence generation as resources allow. For example, 
PRM has been among a small handful of institutions that have funded 
education for refugees around the world based on clear and compelling 
evidence that education is critical for, and one of the best 
predictors, of future stability, health and prosperity. However, PRM's 
funding is largely short-term and is rarely sufficient to cover the 
assessment of meaningful education outcomes such as social-emotional 
learning. While they are supportive of the IRC's application of the 
evidence underpinning our programs, there is no systematic requirement 
for grantees to cite evidence in project design or proposals. Expanding 
multi-year funding to support the achievement medium- and long-term 
outcomes, incorporating requirements for all grantees to link 
interventions to existing evidence base, and investing even more in 
generating new research to fill evidence gaps would help put OFDA and 
PRM even more at the forefront of outcome and evidence-driven 
humanitarian practice.

    Question. Mr. Miliband, in your prepared statement, you discuss the 
impact of the Syrian crisis on Syria's neighbors--Lebanon, Turkey, and 
Jordan. You note that Turkey hosts approximately 2.5 million Syrian 
refugees, Lebanon 1.5 million, and Jordan 1 million--placing these 
countries among the world's top refugee-hosting countries. I am 
particularly interested in the case of Jordan. Jordan's government is a 
close and important ally of the United States. As you state in your 
prepared testimony, Jordan's King Abdullah has warned that his country 
was at a ``boiling point'' and that ``the dam is going to burst.'' You 
note a 2016 assessment that found that 90% of Syrians in Jordan live 
below the poverty line. You note that inadequate international 
assistance has only made it worse. What is your assessment of the 
situation in Jordan? What assistance does the Jordanian government most 
need to help refugees and cope with the humanitarian crisis that has 
spilled from Syria into Jordan?

    Answer. Just a handful of countries bear a disproportionate 
percentage of the refugee caseload. Jordan is among a group of just 
seven (which also includes Iran, Lebanon, Pakistan, Palestinian 
territories, Syria, and Turkey) which together make up just 2.5 percent 
of global GDP, but host half of the world's refugees. We know that 
Syria's civilians have borne and continue to bear overwhelming harm 
from the country's conflict. But, the humanitarian, economic, and 
political impact of the rapid and massive influx of five million 
refugees on Syria's nearest neighbors is not properly recognized or 
understood.
    Jordan hosts roughly a million (600,000+ UNHCR plus an estimated 
equal number of unregistered) Syrian refugees, placing tremendous 
strains on its economy, politics, and social fabric. Jordan's leaders 
face immeasurable political pressures as economic growth remains low 
and unemployment remains high. Economic pressures are reaching a head 
with the budget deficit soaring in recent months. In cooperation with 
the IMF, Jordan has undertaken a variety of austerity measures that are 
hitting Jordanians of all economic strata. For instance, earlier this 
year the Jordanian government instituted deeply unpopular cuts to 
subsidies that caused the price of consumer goods (including mobile 
phone use, food, and gasoline) to skyrocket.
    At the same time, due in part to its commitment to the anti-ISIS 
coalition as well as its strong ties to the U.S. and relations with 
Israel, Jordan has found itself in the crosshairs of ISIS and related 
extremist groups. We have seen an uptick in Islamic State-directed or 
inspired attacks inside the Kingdom--six in 2016 and another already 
this year. In addition, southern Syria, heretofore relatively stable, 
is now the scene of intensified fighting--threatening to bring violence 
and instability closer to Jordan's northern border.
    It is a vital for U.S. security interests in the region and beyond 
that the Jordanian government is able to maintain this balancing act. 
In the context of economic strain, security threats, overwhelming 
refugee caseload, it is critical that U.S. economic (ESF, budget 
support) and military assistance (FMF, EDA, and assistance via DOD-
managed accounts) continue. This assistance is substantively 
important--allowing the Jordanian government to service foreign debt 
and procure military equipment and training. But, it also has 
tremendous symbolic value--illustrating an enduring U.S.--Jordanian 
partnership and affording the strained Jordan Government a domestic 
political win--a tangible example of its diplomatic skill. Slashes to 
the State and USAID budget, especially cuts as significant as those in 
the Administration's proposal, would send a dangerous signal that U.S. 
is abandoning Jordan as it continues to host a disproportionate and 
burdensome number of refugees and finds itself more vulnerable than 
ever to terrorist attacks. These abandonment issues are exacerbated by 
executive order that would suspend and then limit the U.S. refugee 
resettlement program. The combination of drastic cuts to assistance, 
taken with significant cuts to resettlement would be a cruel and 
counterproductive move. It says to Jordanians, who are shouldering so 
much of this burden, that the U.S. does not stand with them; that the 
U.S. will not welcome refugees nor will it help them abroad.
    Maintaining or even increasing aid is part of the answer, but 
change in the sector is just as important. The financial mechanisms 
that have traditionally supported assistance programs for refugees are 
out of step with the realities of current displacement trends. 
Humanitarian financing is short-term, with the vast majority of grants 
provided for less than a year. This fails to recognize the increasingly 
long term nature of displacement (once out of their own country for 5 
years, refugees are likely to be away for 26) but also to address other 
changes in the refugee experience (for example its increasingly urban 
nature).
    Given these realties, the life-saving assistance prioritized by the 
humanitarian sector, while critical, falls short of what is needed 
given that people are rarely displaced for only days or months. A 
significant proportion of the humanitarian budget is allocated to food 
and other in-kind assistance (24.7 percent to food security, shelter, 
and non-food items in 2016), but refugees who are displaced for several 
years--like those in Jordan--need much more.\7\ They need access to 
quality, safe education, job opportunities, and other public services 
to rebuild their lives and live in dignity and safety. Currently, 
humanitarian financing does not reflect these needs: for example, in 
2016, just 1.9 percent of humanitarian aid was allocated to education. 
Yet almost one third--226,000 out of 660,000--of Syrians registered 
with the UNHCR in Jordan are children between 5-17 years old. Of these, 
over a third (over 80,000) did not attend school in 2015-16.\8\ Of 
course, resources should be reserved for unmet emergency needs--but the 
overall resources to address displacement of the scale we see in Jordan 
must grow and be better rationalized between short and long-term needs 
and across humanitarian and development budgets.
    Key constraints to refugee self-reliance in Jordan relate to 
freedom of movement, legal residency, access to financing, right to 
work, and a host of other barriers. Given the political sensitivities, 
Jordan (and other host countries) need and deserve strong incentives 
and clearly articulated benefits for integrating refugees more fully 
into national development strategies. In this regard, compact 
agreements have emerged as an approach that brings together host 
countries, donors, and development and humanitarian actors in multiyear 
agreements to achieve defined outcomes for refugees and host 
communities. By bringing together diverse actors and financing 
mechanisms in multi-year agreements focused on measurable results, 
compacts strengthen incentives for policy reforms. Compacts set 
mutually-reinforcing and binding commitments, such as financing and 
policy changes from both host countries and donors, with a plan and 
accountability mechanism for achieving and tracking results. These 
developments and opportunities represent some of the most innovative 
changes in the humanitarian sector in decades and really get to the 
heart of the challenged facing refugee-hosting nations like Jordan.
    Such an approach is already in place in Jordan where the World Bank 
has partnered with host governments and other donors to improve 
livelihoods and education outcomes. The Jordan Compact, agreed to in 
February 2016 at the London Donor's Conference, In Jordan, the compact 
seeks to create 200,000 new job opportunities for refugees primarily by 
developing and strengthening existing special economic zones, 
complemented by relaxed rules for exports to the European Union, to 
attract international and domestic investments and spur job growth. In 
return, the Jordanian government will receive low-interest loans from 
foreign creditors (such as the World Bank's Global Concessional 
Financing Facility) and trade preferences for Jordanian exports to the 
European Union for goods produced in special economic zones with a 
designated level of Syrian labor participation.
    The U.S. could similarly implement a ``compact'' approach for 
Jordan, providing robust financing with targets for improvements in the 
lives of both refugees and their host communities. Jordan has already 
proven itself a willing and strong partner in such an approach, with an 
award-winning compact with the Millennium Challenge Corporation.
    The U.S. commitment to provide bilateral and multilateral 
assistance--including creative thinking like the Compact model--to 
support refugees and hosts alike is a function of enlightened self-
interest--especially for critical ally and partner like Jordan. The 
forced and premature return of Syrian refugees to an unstable Syria or 
significant instability or unrest in Jordan would foment new currents 
of conflict and crisis that, given U.S. interests and commitments in 
the region, would draw U.S. funds and U.S. troops into further 
quagmires.

    Question. Mr. Miliband, in your prepared remarks, you state that 
the combined U.N. appeal in 2016 was only 57% funded by year's end. You 
also write that ``this year we're off to a feeble start, with only 14% 
of the $9 billion appeal committed.'' You note that this failure of 
donors to honor their commitments results in pleas for help going 
unmet. You also observe that these gaps in assistance have exacerbated 
the refugee crisis. How would you further assess international giving 
with respect to the crisis in Syria? Which G-20 countries in particular 
do you believe should contribute more to help ensure this year's U.N. 
appeal is fully funded?

    Answer. A chart below provides an understanding of how much the 
various G-20 countries contributed to the Syria Crisis in 2016. The 
amounts of assistance given are also presented in light of each 
country's Gross National Income (GNI), a relative measure of their 
ability to give. The following chart shows contributions made so far in 
2017.
    The 2016 chart shows the United States in one of the top donor 
positions, greatest in terms of absolute volume and fourth in terms of 
the donation in GNI relative terms. Clearly, as you look down the 
chart, you will see several countries that are giving very little in 
gross and relative terms. Turkey's contribution should be considered in 
light of the massive contribution it has made by hosting 2.9 million 
Syrians in their own country.
    The United States made impressive strides in September of 2016 
through President Obama's Leadership Summit on Refugees in pushing 
other countries to put greater resources to respond to all refugee 
crises. The U.S. government pursued a ``pay-to-play'' model in which 
countries were only able to participate if they made concrete and 
actionable commitments in three core areas critical to ``responsibility 
sharing'' for refugees, including: increasing refugee assistance (by 
30% over their 2015 contributions), doubling the number of resettlement 
slots offered and, for refugee hosting countries, increasing refugee 
self-reliance by allowing access to work permits and education 
opportunities. Several countries, including G-20 countries, committed 
to the 30% increase in humanitarian assistance.
    G-20 countries on the bottom half of 2016 Syria donors chart made 
significant commitments at the Summit, including; Australia, China, 
France, Italy, Japan, Korea and Mexico. Other G-20 countries among the 
top donors to the Syria crisis that committed to even greater financing 
at the Summit included Germany, Canada and Saudi Arabia. The new 
Administration should pick up on Leaders' Summit efforts to ensure the 
delivery of these commitments in real terms.
    A great deal of U.S. diplomatic and political energy was tapped in 
persuading these countries to take greater responsibility in responding 
to the global refugee crisis; these wins should not be lost as we 
transition to a new administration. While we can, and should, expect 
other wealthy nations to do more, it is U.S. assistance and U.S. 
diplomatic leadership that drives change and catalyzes allies and 
partners to take on their share of the burden.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Question. Mr. Miliband, in your prepared statement, you write the 
following: ``U.S. troops are helping to clear some parts of Iraq of 
terrorist groups for the third time; in part because insufficient 
investment in humanitarian response, development progress, and 
political reform has each time allowed extremists to take hold.'' What 
does that fact tell us about the need for robust U.S. investments in 
effective development and diplomacy? Do you believe sufficient planning 
is underway now to address post-conflict governance and humanitarian 
issues in Raqqa?

    Answer. Successive military interventions have taught us that 
military force can and will drive ISIS from Mosul and Raqqa. But, 
impact of driving out the Islamic State will be short-lived without 
political progress and governance gains. Translating military victory 
into political stability requires local governance that all citizens 
believe is representative of and responsive to their physical, 
economic, and political security. Building this confidence is not a 
``post-conflict'' endeavor. It starts with the conduct of the war--
whether civilians are protected either in their homes or as they flee--
and the quality of the humanitarian response--both the level and 
quality of services and whether populations are treated with dignity in 
respect by all governing authorities. Both have a direct and 
significant impact on the prospects for reconciliation and 
stabilization.
    This is the work of humanitarian responders, diplomats, and 
development professionals in concert with local governing authorities--
to save lives now and create the conditions necessary for stability 
later. And this work must start on day 1, not approached sequentially 
and left for ``phase IV.'' The residents of Mosul, Raqqa, and other 
retaken areas must be protected during conflict, treated with dignity 
in displacement, and allowed to return home with guarantees for their 
safety and their future. Otherwise, the cycle of instability and 
violence will continue.
    However, the IRC has identified three distressing trends, which if 
left unchecked, will undermine the prospects for stability and will 
keep the ground fertile for ISIS or an offshoot to regroup and 
reemerge.

    Military haste. A mandate to speed up the pace of military 
operations has emerged. This acceleration is evidenced by the sooner-
than-anticipated launch of operations in Western Mosul and the increase 
in military activity in/around Raqqa in recent weeks--including a spike 
in U.S. troop numbers and the ferrying (via U.S. air assets) of Kurdish 
and Arab SDF fighters behind ISIS front lines.
    But, military haste can make for humanitarian harm. The quicker 
pace too often undercuts civilian protection. We were heartened by the 
premium that Iraqi Security Forces (ISF) put on the protection of 
civilian life and property during the operations in Eastern Mosul. But, 
trends in more difficult operating environment of Western Mosul are 
less encouraging. The ISF and Coalition forces are increasingly turning 
to airstrikes and artillery to clear densely populated areas to 
devastating effect. Just a month into the operations, 40% of Western 
Mosul's infrastructure has already been destroyed and, as of March 30, 
more than 800 civilians had already been killed or wounded. On, March 
17, a U.S. military airstrike targeting Islamic State fighters may have 
killed as many as 200 people, including civilians. Amidst this 
violence, civilians are fleeing at rates higher than expected. At least 
200,000 people have already fled Western Mosul, and the number could 
outstrip OCHA's estimate which has been revised to 400,000 from an 
initial estimate of 250,000 IDPs. Inflicting heavy civilian casualties 
and destroying homes and businesses will only make the political 
challenge of stabilizing ethnically diverse Mosul even more difficult, 
if not impossible, for the Shia-dominated government of Iraq.
    In Raqqa, a rush to retake ISIS-held territory without a plan for 
governance or social cohesion is no plan at all. U.S. forces in Syria 
are deploying into a multi-sided and combustible political conflict. 
The complex dynamics of the battlefield are made clear by the fact U.S. 
forces have had to deploy near Manbij to keep Turkish and Kurdish 
forces from fighting each other rather than ISIS. As such, pursuing 
military options in and around Raqqa without a political destination 
risks adding the U.S. to list of actors scrambling for land rather than 
long-term solutions. In Raqqa, post-conflict planning is not as simple 
as handing newly retaken areas back to a host country partner. There is 
no obvious political partner--running the risk of either a governance 
vacuum or governance structures that are viewed as exclusive or unjust. 
Either outcome would set the stage for the reemergence of extremist 
groups. Strong U.S. diplomacy will be critical to strike a deal that 
ends violence and reconciles the competing interests of the Assad 
regime, Turks, Kurds, Russians, Iranians, and, most critically, the 
local population.
    A strong and principled American voice must articulate support for 
international humanitarian law in the conduct of war, and promote 
inclusive and legitimate governance to underpin the peace where ISIS 
has been drive out. This matters not only for the lives of civilians 
caught in the midst of the current conflicts, but for the aftermath of 
conflict and for future conflicts. Military victory that does not 
translate into political legitimacy--especially for Sunni populations 
that will need to be integrated into Shia-dominated governing 
structures--will not keep ISIS at bay for long.

    Insufficient humanitarian response. An environment of chaos and 
great suffering allowed ISIS to emerge. Yet the humanitarian response 
in both Iraq and Syria remains underwhelming with the U.N. appeal for 
Iraq less than half funded and the Humanitarian Response Plan for Syria 
funded at less than 10%. At the same time, the IRC has witnessed the 
shocking lack of protection for Iraqi and Syrian civilians.
    During last year's operations in Iraq's Anbar Province, those 
fleeing contended with unprotected and treacherous exit routes; unclear 
and often inhumane screening procedures, restrictions on movement, in 
some cases, premature return to areas that lack security and 
opportunity. The result is not just a humanitarian crisis--but a 
political one. Displaced Iraqis (mainly Sunni Arab and other 
minorities) are experiencing trauma and indignities that underscore 
their historical grievances, deepen their distrust of the Iraqi 
government, and undercut the stabilization and reconciliation process 
that Iraq so desperately needs. While the Iraqi and Kurdish authorities 
and the international community improved the quality of the Mosul 
response, ``pain points'', where IDPs endure indignities, hardships, or 
violence/retribution, remain. And, given the rapid rates of 
displacement, all IDP camps to the east and south of Mosul are full 
according to OCHA, leaving IDPs with few options. Most are moving to 
out-of-camp locations where basic services are scarcely available--
leaving those displaced from Mosul physically and economically 
insecure.
    The IRC is also responding to populations fleeing Raqqa and its 
environs and see similar dynamics. Kurdish authorities in Hassakeh 
often treat displaced (mostly Sunni Arab) families with distrust rather 
than dignity as they seek stability, protection, and services. 
Moreover, the SDF and other security authorities in northern Syria are 
imposing tight restrictions on those who flee the Raqqa area, pointing 
to the risk of ISIS cells concealing themselves as IDPs to infiltrate 
and carry out attacks. We expect a significant deterioration of 
humanitarian conditions and large-scale displacement once the operation 
to retake Raqqa itself begins. Tens of thousands have fled as the SDF 
advanced, 30,000 could flee as the operation on Raqqa itself begins. 
The U.N. estimates that 400,000 could ultimately be forced from their 
homes as trade routes are cut and access to food, water, fuel and 
medical aid diminish. Current funding level are insufficient and 
security and access will also be a challenge--as it has been across 
Syria. Access for humanitarian actors, like the IRC, that deliver aid 
into Syria via cross-border hubs in Jordan, Turkey, and Iraq has 
steadily decreased and shifting frontlines further threaten our access.
    Those displaced by fighting must be afforded every protection as 
they seek safety and the U.S. and other donors must prioritize funding 
a high-quality response as military operations accelerate. Simply put, 
humanitarian assistance is enlightened self-interest. Insufficient 
humanitarian response begets instability and foments new currents of 
conflict and crisis that draw U.S. funds and U.S. troops into further 
quagmires.

    Deep proposed cuts to State Department and USAID budgets. 
Sustaining support to multilateral and USAID initiatives to deliver 
emergency assistance and help plant the seeds of good governance is a 
critical companion to military efforts. Senior Pentagon officials, 
including Chairman of the Joint Chiefs, General Joseph Dunford, and 
CENTCOM Commander, General Joseph Votel, have stressed that counter-
ISIS strategy requires whole-of-government efforts to bring stability 
to retaken areas. Cuts to the foreign assistance budget--especially at 
the rates proposed in the President's FY18 budget--would be 
inconsistent symbolically and substantively with a true effort to 
counter and destroy ISIS. Symbolically, such drastic reductions are a 
step back from diplomatic leadership--both within the 68-member Global 
Counter-ISIS Coalition and with the competing actors, both state and 
non-state, in Northern Syria. Such cuts would diminish the likelihood 
of the U.S. playing a meaningful role in ensuring these conflicts are 
resolved in a way that benefits long-term stability.
    Substantively, the resource that would be cut are the very ones 
used to throw a lifeline to the families caught up in crisis in the 
form of basic food, water and sanitation, medical assistance, 
protection for women and girls and education. When areas of Fallujah, 
Sal ah Addin, Raqqa, or Mosul are retaken from ISIS, humanitarian 
workers are the next to enter to provide immediate lifesaving 
assistance and lay the ground work for longer-term stabilization and 
cohesion. These dangerous cuts would decimate the State Department and 
USAID and deprive the military of the partners it needs to drive ISIS 
out of these areas and ensure it does not return.
    Getting aspects of the military operations, measures to protect 
civilians, and humanitarian response wrong will undermine chances for 
social cohesion and stability in the ``post-conflict'' phase. Quality 
humanitarian response, and measures to protect civilians and ensure 
their rights and dignity, will go a long way to help reconcile this 
mostly Sunni population with the central government and prove that 
government is competent and working to meet their needs and to address 
their feeling of marginalization. Clearing ISIS will just be just the 
first step--and it must be coordinated with a plan to meet the 
humanitarian needs of populations traumatized under ISIS and to set the 
stage for reconciliation and social cohesion. This will require 
American diplomatic and humanitarian leadership and American 
resources--there is no short cut.

------------------
Notes

    \1\ See www.oef.rescue.org for more information.
    \2\ Hageboeck, M et al. Evaluation Utilization at USAID. Management 
Systems International. 2016.
    \3\ Bailey, J. et al. Combined protocol for SAM/MAM treatment: The 
ComPAS study. Field Exchange 53:44. 2016.
    \4\ IRC and Johns Hopkins University. Feasibility and Acceptability 
of Gender-Based Violence Screening: Primary Health Facilities in 
Humanitarian Settings. 2015.
    \5\ Stone E, et al. Community Event-Based Surveillance for Ebola 
Virus Disease in Sierra Leone: Implementation of a National-Level 
System During a Crisis. PLOS Currents Outbreaks. 2016. Edition 1.
    \6\ IRC. Women's Protection and livelihoods: assistance to Central 
African Refugees and Chadian Returnees in southern Chad --Program 
Evaluation Final Report, November 2016.
    \7\ Financial Tracking Service (2017b).
    \8\ Forthcoming: IRC-CGD Study Group Report.

                                  [all]
</pre></body></html>
